<html>
<title> - REAUTHORIZATION OF THE NATIONAL TRANSPORTATION SAFETY BOARD (NTSB)</title>
<body><pre>[Senate Hearing 106-977]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 106-977
 
   REAUTHORIZATION OF THE NATIONAL TRANSPORTATION SAFETY BOARD (NTSB)
=======================================================================


                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 15, 1999

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation






                       U. S. GOVERNMENT PRINTING OFFICE
71-741                          WASHINGTON : 2002
__________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
SLADE GORTON, Washington             JOHN D. ROCKEFELLER IV, West 
TRENT LOTT, Mississippi                  Virginia
KAY BAILEY HUTCHISON, Texas          JOHN F. KERRY, Massachusetts
OLYMPIA J. SNOWE, Maine              JOHN B. BREAUX, Louisiana
JOHN ASHCROFT, Missouri              RICHARD H. BRYAN, Nevada
BILL FRIST, Tennessee                BYRON L. DORGAN, North Dakota
SPENCER ABRAHAM, Michigan            RON WYDEN, Oregon
SAM BROWNBACK, Kansas                MAX CLELAND, Georgia
                       Mark Buse, Staff Director
                   Martha Allbright, General Counsel
     Ivan A. Schlager, Democratic Chief Counsel and Staff Director
               Kevin D. Kayes, Democratic General Counsel






                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held July 15, 1999.......................................     1
Prepared statement of Senator Hollings...........................     5
Statement of Senator Hutchison...................................     1
Statement of Senator McCain......................................     2
    Prepared statement...........................................     3
Prepared statement of Senator Rockefeller........................     5
Statement of Senator Stevens.....................................     1
Statement of Senator Wyden.......................................     4

                                Witness

Hall, James E., Chairman, National Transportation Safety Board...     6
    Prepared statement...........................................     9

                                Appendix

Principles of Understanding Between ATA Carriers and the NTSB 
  Regarding Certain Aviation Expenditures Related to the Recovery 
  and Identification of Aviation Accident Victims................    49
Responses to written questions submitted to James E. Hall by:
    Hon. Slade Gorton............................................    29
    Hon. Ernest F. Hollings......................................    31
    Hon. John McCain.............................................    34
    Hon. John D. Rockefeller IV..................................    47
    Hon. Ted Stevens.............................................    51


   REAUTHORIZATION OF THE NATIONAL TRANSPORTATION SAFETY BOARD (NTSB)

                              ----------                              


                        THURSDAY, JULY 15, 1999

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m. in room 
SR-253, Russell Senate Office Building, Hon. Ted Stevens 
presiding.
    Staff members assigned to this hearing: Charlotte Casey and 
Ann Begeman, Republican Professional Staff; and Carl Bentzel, 
Democratic Senior Counsel.

            OPENING STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. On behalf of the Chairman, I would like to 
start this hearing. He has been delayed.
    With regard to the funding resolution I believe the 
Chairman will take care of that in one way or another after he 
gets here. We would like to turn to Mr. Hall first, Mr. James 
Hall, Chairman of the National Transportation Safety Board, 
accompanied by Peter Goelz, Dan Campbell, and Craig Keller, all 
of the National Transportation Safety Board staff.
    I am pleased to see you again, Mr. Chairman, and hope it is 
true that you will come visit us this summer. Do you have an 
opening statement, sir?
    Senator Hutchison. Mr. Chairman.
    Senator Stevens. Do you have an opening statement?

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. I do, if I could just say a couple of 
words.
    I want to welcome my former colleagues here. As many of you 
know, I was vice chairman of the NTSB for many years. Thanks to 
the courtesy of the sitting Chairman, who helped me at the time 
with my confirmation through the Commerce Committee, which was 
not a very easy confirmation process, because it was at the end 
of an administration, but thanks to your efforts, Senator 
Stevens, I was confirmed.
    I want to say that I think the NTSB is doing a super job, 
and I am very proud of the Board and the cooperation, and I 
want to say, too, that I think your mission is a good one, and 
I believe that NTSB recommendations have made a difference in 
safety through the years, not only in investigations of what 
has passed, but learning from that, making recommendations, and 
having those recommendations make a difference.
    NTSB recommendations for fire resistant materials in 
aircraft, floor level safety escape lighting in aircraft 
cabins, child safety seats in automobiles, improved school bus 
construction standards, and Amtrak passenger car safety 
improvements have saved lives, and I think we can take credit 
for much of the good safety record because of those 
improvements. I also think that NTSB's independence and 
credibility has been maintained.
    You are asking for a big leap in federal funding. You are 
asking for a 17 percent increase in funding, which is 28 
percent over the current level. That is going to require a lot 
of scrutiny and prioritization. I realize that accident 
investigations are more complex, that technology has made it 
more complex, and that you have to have better expertise, but 
I'm going to ask you to prioritize, Chairman Hall, where you 
really need the extra resources if you had to do what we do on 
our side of the dais, and that is to make priority funding 
decisions, because we are all trying to stay within the budget.
    We know you are doing a great job. We know you are trying 
to go into the 21st Century with the strength you are going to 
need, but I would like for you to focus on your priorities so 
that when we, including the Chairman of the Appropriations 
Committee sitting here, start looking at the bottom line, we 
would know where you would want the most increase of your 
resources.
    So I thank you for doing a great job, and I certainly will 
be supportive of your mission.
    Thank you, Mr. Chairman.

                STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    The Chairman. I want to thank the witnesses. I want to 
thank Senator Hutchison for her opening remarks, and I want to 
thank the Members of the NTSB for the fine job they have been 
doing. They worked tirelessly in many cases.
    I would be remiss if I did not bring up the fact that there 
has been great concern about Board Member travel expenses and 
expenditures, and I hope, Chairman Hall, you will address this.
    According to NTSB travel documents, only 15 percent of 
Board Member travel has been accident related in the past 5 
years. Nonaccident, domestic, and foreign travel accounts for 
85 percent of the total travel expenditures, with 51 percent 
for domestic travel and 34 percent for foreign travel.
    I recognize a legitimate need may exist to participate in 
important seminars and to gain professional expertise that may 
necessitate travel. The Board's travel record, however, is 
excessive.
    From January through the first week of June 1999, $121,805 
has been spent by five Board Members. Of this amount, only 12 
percent has been accident-related, according to Safety Board 
information. Board Members have traveled to dozens of exotic 
foreign countries, including South Africa, Nepal, China, and 
Indonesia, in addition to yearly visits to France and England, 
sometimes several trips to Paris in a single year.
    The NTSB travel report shows that taxpayers are even 
covering the travel expenses of a Board Member to lecture at a 
university in California.
    I am informed just yesterday, Board Members were given 
individual travel budgets to abide by. The travel budgets would 
cover only nonaccident foreign and domestic travel.
    Under the plan, the Chairman would have a foreign and 
domestic travel budget of $50,000 a year, the Vice Chairman 
$25,000, and each of the other three Board Members $20,000. 
Although the travel budgets would be less than some Board 
Members currently spend, the Safety Board Members would still 
have a nonaccident travel-related kitty of $135,000 a year. 
That seems excessive for nonaccident travel. In fact, that 
exceeds the total amount of all Board Members' travel in 1996.
    I believe these budgets are too high. I think a strong case 
can be made for further restraints. I will be interested in 
hearing from Chairman Hall regarding this issue.
    As my colleagues on the Committee know, other Federal 
agencies under our jurisdiction have travel approval 
guidelines. For example, all foreign travel involving DOT modal 
administrators requires a request to the Office of the 
Secretary for approval. The FTC and the FCC also have 
procedures for governing member travel.
    It seems reasonable that the Safety Board take fiscally 
responsible action to eliminate travel excesses, and I intend 
for our Committee to take appropriate action to ensure NTSB 
travel expenditures are reined in.
    Thank you, Chairman Hall, thank you, Members of the NTSB, 
for being here. Welcome to the Committee.
    [The prepared statement of Senator McCain follows:]
   Prepared Statement of Hon. John McCain, U.S. Senator From Arizona
    This morning the Committee will discuss reauthorization of the 
National Transportation Safety Board (NTSB). The Chairman of the NTSB, 
Jim Hall, will testify, and he is accompanied by Peter Goelz 
(pronounced goalz), Managing Director, Daniel Campbell, Deputy Managing 
Director, and Craig Keller, Chief Financial Officer.
    I want to begin by commending the NTSB for the excellent work it 
does. The staff of the NTSB works tirelessly, and in many cases, under 
the least desirable circumstances. Their commitment to accident 
investigation and the development of safety recommendations to prevent 
accidents from recurring is admirable. I know the Congress and the 
Board Members appreciate and applaud their dedication.
    The Committee is particularly interested this morning in learning 
what the Safety Board believes Congress can do to assist it in 
fulfilling its mission.
    The Safety Board has submitted a wide-ranging 3-year 
reauthorization request, one that seeks 100 more employees than 
currently authorized, significant funding increases, clarification of 
Safety Board investigation priority, personnel management reforms, and 
electronic recorder disclosure protections. I can assure you that the 
Committee will do everything it can to assist the Board, within our 
given budget constraints.
    While I have the highest regard for the Board, I would be remiss if 
I didn't express concerns over what appears to be a serious lack of 
budget restraint in one particular area--namely Board Member travel 
expenditures.
    According to NTSB travel documents, only 15 percent of Board Member 
travel has been accident-related in the past five years. Non-accident 
domestic and foreign travel accounts for 85 percent of the total travel 
expenditures--with 51 percent for domestic travel and 34 percent for 
foreign travel. While I recognize a legitimate need may exist to 
participate in important seminars and to gain greater professional 
expertise that may necessitate travel, this is simply excessive.
    From January through the first week of June 1999, more than 
$121,805 has been spent by the 5 Board Members. Of this amount, only 12 
percent has been accident related according to Safety Board 
information.
    Upon review of NTSB travel data over the past five years, Board 
Members have traveled to dozens of exotic foreign countries including 
South Africa, Nepal, China, and Indonesia in additional to yearly 
visits to France and England--sometimes several trips to Paris in a 
single year. NTSB travel reports show that taxpayers are even covering 
the travel expenses of a Board Member to lecture at a university in 
California. I find this baffling. I am further frustrated to learn that 
procedures governing Board Member travel have been essentially non-
existent.
    I am informed that just yesterday, Board Members were given 
individual travel budgets to abide by. The travel budgets would cover 
only non-accident foreign and domestic travel. Under the plan, the 
Chairman would have a foreign and domestic travel budget of $50,000 a 
year, the Vice Chairman would receive $25,000, and each of the other 
three Board Members would receive $20,000. Although the travel budgets 
would be less than some Board Members currently spend, the Safety Board 
Members would still have a non-accident related travel kitty of 
$135,000 a year. That seems excessive for non-accident travel. In fact, 
that exceeds the total amount of all Board Member travel in 1996.
    Consequently, I believe these budgets are still too high and I 
think a strong case can be made for further restraints on Board Member 
travel. I will be very interested to hearing from Chairman Hall 
regarding this issue.
    As my colleagues on the Committee know, other federal agencies 
under our jurisdiction have travel approval guidelines. For example, 
all foreign travel involving DOT modal Administrators requires a 
request to the Office of the Secretary for approval. The FTC and the 
FCC also have procedures governing member travel. It seems only 
reasonable the Safety Board take fiscally responsible action to 
eliminate travel excesses. And, I intend for our Committee to also take 
appropriate action to ensure NTSB travel expenditures are reigned in.
    Again, thank you Chairman Hall for taking the time to appear before 
us today. I will ask you to proceed with your statement after hearing 
opening comments from the Committee members.

    Senator Wyden, do you have an opening statement?

                 STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. Just very briefly, Mr. Chairman.
    I appreciate the chance to address an issue briefly today 
with Mr. Hall that is of enormous interest to my constituents. 
Particularly, the NTSB proposal to give higher priority to 
maritime accidents is one that I think needs to be explored 
very seriously.
    Last February, we had a real tragedy in my State where a 
foreign vessel, the New Carissa, ran aground near Coos Bay, 
Oregon, causing extensive environmental damage to our State's 
fisheries and other coastal resources. We faced thousands and 
thousands of gallons of fuel oil leaked out of our wrecked ship 
as it lay stranded on one of Oregon's treasures, on our beaches 
for more than 3 weeks.
    We have been waiting now for more than 5 months to try to 
get the facts from the Coast Guard with respect to this 
accident. We badly need to know what happened, and their 
recommendations for keeping this sort of thing from taking 
place again, so I'm very interested in exploring this option 
with you. We have not been able to get timely answers from the 
Coast Guard with respect to this matter, even as to what caused 
the initial grounding, and as the Coast Guard's formal board of 
inquiry just drags on and on we are concerned that the 
conditions that led to the New Carissa wreck continue unabated.
    We are not going to allow this kind of Russian roulette 
with treasures on the Oregon coast, and so I will be exploring 
with you in a few minutes some of the creative proposals the 
NTSB has for looking into maritime accidents. It seems to me 
that if you are going to look at a relatively small number of 
accidents, but very important ones, that might well be an 
appropriate role to give you. It would also allow for a role 
for the Coast Guard, and we will be anxious to explore that 
with you.
    I thank you for the time, Mr. Chairman, to talk about 
something of great interest to my constituents.
    The Chairman. Thank you very much. Welcome, Chairman Hall 
and Members of the NTSB. Please proceed, sir.
    [The prepared statements of Senator Hollings and Senator 
Rockefeller follow:]
            Prepared Statement of Hon. Ernest F. Hollings, 
                    U.S. Senator From South Carolina
    Good morning. Today we will review the needs of the National 
Transportation Safety Board (NTSB). First, let me thank the NTSB and 
its Chairman, Jim Hall, for their contributions to improving safety. I 
noticed that the Vice Chairman, Bob Francis, recently announced his 
desire not be reappointed. He played a key role in numerous 
investigations--TWA Flight 800 and the ValuJet come to mind.
    It is critical that the NTSB continue to serve as an independent 
investigator, and be able to make key safety recommendations. When 
called upon to go to the scene of an accident, your teams of experts 
leave upon a minute's notice. State by state, step by step, the NTSB is 
there to help us understand why a certain tragedy occurred and to make 
recommendations to prevent a recurrence.
    In South Carolina, your team spent a great deal of time and effort 
looking into the accident concerning the Morning Dew. Two hearings were 
held, but the report has not yet been issued. You must continue in your 
efforts to review the cause of this accident, and all accidents, in an 
expeditious fashion.
    I also want to commend you and the NTSB. By all accounts, your 
family assistance program seems to be working. I suspect its because of 
all of your hard work, and that of your staff.
    You are requesting a significant increase in resources for the 
NTSB. Generally I am supportive of the needs of the NTSB, but you will 
need to explain and justify the proposed increases. I understand that 
the FY 2000 Appropriations bill provides you with $51.5 million and 
deletes monies to rent the facility in Calverton, that now contains TWA 
Flight 800, a cut of $3.2 million.
    When we look at accident statistics, we know that the safest mode, 
according to your data, is the aviation system. Yet, the Board spends 
most of its resources on aviation, and the increases in staffing are in 
the aviation arena. I know you share my concern that we make strides in 
other modes too.
    I look forward to hearing from you Mr. Hall, and working with you 
to make sure the NTSB is on the right course.
             Prepared Statement of John D. Rockefeller IV, 
                    U.S. Senator From West Virginia
    Good morning. I want to thank the Chairman for holding this hearing 
on the reauthorization of the National Transportation Safety Board. I 
have known Chairman Jim Hall for a number of years prior to his service 
at the NTSB, and I appreciate his leadership at the Board and am glad 
to see him as our witness today.
    When I look at the NTSB, I see many people that work for the 
Chairman--people dedicated to safety and working under difficult 
conditions and often around the clock to sift through the wreckage of a 
train, a plane or other means of transportation. They use their trained 
eyes to figure out what happened and to determine whether we (in 
industry and in government) could have done something differently or 
better and perhaps prevented the accident.
    The process is a time-consuming one, and while we may sometimes 
complain that a report takes too long, I do not believe those delays 
are due to some sort of bureaucratic snafu, but rather that they are 
the necessary evil of a tedious and difficult task.
    Last year alone, the NTSB sent out 31 ``go teams''--people called 
upon to immediately go to the scene of a disaster. While I am spending 
a great deal of my time on aviation issues these days, I certainly 
recognize that the NTSB's investigatory authority covers all of the 
modes of transportation. Improving safety is a common goal for all of 
us. We have the best transportation system in the world, in many ways, 
but we must continue to make improvements.
    For example, there was a near-miss incident over Kennedy Airport in 
New York on June 27 involving two planes that came within a few feet of 
one another. Why that happened, how that happened, and how we avoided a 
major disaster, are questions that the NTSB investigators must review.
    And we know that in the wake of the recent American Airlines 
tragedy in Little Rock, the NTSB is taking a close look at the question 
of crew fatigue, and I look forward to the benefit of the Board's 
conclusions and guidance on that issue.
    We also are going to talk today about the future of the NTSB--the 
training needs of its employees, personnel changes that may make it 
easier to attract the kinds of talent the NTSB needs, and the number of 
people the agency needs to meet its mission and mandate.
    I want to work with Chairman Hall, Senator McCain and the Committee 
on crafting a worthwhile authorization bill--one that gives the NTSB 
support they need so that the U.S. public can continue the high level 
of confidence it has today in this important agency.

      STATEMENT OF HON. JAMES E. HALL, CHAIRMAN, NATIONAL 
   TRANSPORTATION SAFETY BOARD, ACCOMPANIED BY PETER GOELZ, 
MANAGING DIRECTOR, DANIEL CAMPBELL, GENERAL COUNSEL, AND CRAIG 
KELLER, CHIEF FINANCIAL OFFICER OF THE NATIONAL TRANSPORTATION 
                          SAFETY BOARD

    Mr. Hall. Chairman McCain, Senator Stevens, Senator 
Hutchison, and Senator Wyden, it is a pleasure to be here this 
morning on behalf of the National Transportation Safety Board, 
and it was a pleasure to begin my morning listening to Don Imus 
with his guest, the distinguished senior Senator from Arizona.
    Before I begin my remarks, please let me note the untimely 
death this week in an aviation accident in Nevada of Don Engen, 
who served not only as a member of the National Transportation 
Safety Board, but was also the former Administrator of the FAA. 
He was, most recently, currently of course, the head of the Air 
and Space Museum. He had a distinguished career in the 
military, including extensive service on behalf of our Nation 
in World War II, and I know you all join me in wishing Mary and 
his family our deepest condolences during this period.
    Mr. Chairman, I appear before you today with a number of 
carefully considered legislative proposals that the Safety 
Board believes will, if adopted, strengthen our ability to 
fulfill our mission well into the next century. The Board's 
testimony submitted for the record goes into detail on our 
activities over the past 3 years, and explains in depth why the 
Safety Board is requesting changes in its authorizing statute.
    Let me highlight briefly for you why I believe these 
changes are essential. As Chairman of the Board, I believe my 
greatest responsibility is to do everything I can to ensure 
that the agency is prepared to successfully carry out its 
mission into the 21st Century.
    It is for that reason that we contracted with the RAND 
Corporation last year to conduct an independent review of two 
critical aspects of our operation. We asked them to review the 
emerging trends in aviation and to assess the Safety Board's 
ability to meet the challenges of the next century. Second, we 
asked them to review the party process, the way in which the 
Safety Board conducts its investigations.
    While the report is not in final form, RAND has briefed the 
Board and this Committee staff on their preliminary findings 
and recommendations. I would like to highlight just a few of 
the important areas.
    RAND has indicated that although future major aviation 
accidents in the United States may be fewer in number, they 
will be more complex. In other words, accident investigations 
like those of USAir 427 and TWA Flight 800 are more likely to 
be the norm rather than the exception.
    They also project tremendous growth in all areas of 
transportation. For example, domestic enplanements are expected 
to grow from $561 million in 1998, to over $850 million in 
2010. The domestic commercial air carrier fleet will also grow 
from a level of just over 5,000 aircraft, to more than 7,500 
aircraft by 2010.
    We have brought along a number of charts, and we have 
supplied for the Members copies of those charts. Senator 
Stevens may be interested to note specifically that the general 
aviation active fleet is expected to increase by more than 
24,000 aircraft by 2009. The worldwide fleet will also grow, 
almost doubling in size to 20,000 aircraft by 2010.
    What this means for the Safety Board is a substantially 
greater demand on our resources to investigate aviation 
accidents and incidents both here and overseas. The expansion 
in the other transportation modes will be equally compelling 
and equally demanding on our resources.
    For example, by 2010, highway traffic will increase to over 
3 trillion miles traveled, and heavy truck miles traveled will 
rise by 27 percent. Truck weight will increase by 32 percent. 
The number of trucks however, will only increase by 13 percent, 
suggesting that trucks will be heavier and travel greater 
distances.
    We will see an even greater statistical increase on our 
railroad lines. Between 1997 and 2010, annual train miles will 
increase from 500 million to over 750 million, a 50 percent 
increase. In the same period, shipping tons carried in 
connection with U.S. ocean-borne foreign trade and commercial 
cargo will increase from 950 million to over 1.25 billion, an 
increase of 30 percent, and the number of passengers on cruise 
ships, which will just become in the future small floating 
cities, will also increase. In 2000, 7 million passengers are 
expected to take deep water cruises.
    Finally, by 2010, we will have more than 1\1/2\ million 
miles of gas and liquid pipeline throughout the United States.
    I would now like to briefly outline some of the proposals 
we are asking the Committee to adopt. In our first proposal, we 
seek a restatement of Congressional intent regarding NTSB 
accident priority because of the increasing likelihood that 
criminal investigations will be undertaken in conjunction with 
NTSB investigations. Certainly that has been the case in some 
of our recent major accident investigations, such as TWA Flight 
800, the ValuJet 592 crash, and the Fine Air cargo crash in 
Miami.
    In addition, the EPA often initiates criminal 
investigations following maritime accidents, and the ATF 
frequently investigates fires aboard vessels. The recent Amtrak 
truck collision in Illinois and the pipeline accident in 
Billingham, Washington, are also under criminal investigation.
    Interagency coordination between ongoing safety 
investigations and criminal investigations can be complicated. 
Although the Safety Board believes that Congress assigned 
priority to NTSB accident investigations, we readily 
acknowledge that the pressing needs of a criminal investigation 
requires special care in the handling of evidence at the scene, 
the conduct of witness interviews, and in the release of 
information to the public.
    We accommodate such requirements within our investigative 
processes. We understand and support the importance of the 
criminal investigative process, but it should not impede safety 
investigations. Without a clear statutory premise for NTSB 
safety priority, the negotiation of such compromises and 
accommodations will remain dependent on circumstances and 
personalities.
    A second proposal would enhance the Safety Board's 
authority to conduct independent investigations in major marine 
accidents. What we seek for major marine accidents is no more 
than what Congress believes necessary for all the other modes, 
including highway, railway, aviation, and pipeline. We seek 
truly independent authority to conduct safety investigations 
without conflict or compromise.
    I want to make it very clear to the Committee that the 
Safety Board cannot do that now. The recent accident on Lake 
Hamilton in Arkansas should leave no doubt on this point. The 
Lake Hamilton accident resulted in the loss of 13 lives. The 
vessel that sank, commonly called a duck, is one of at least 
100 converted World War II amphibious craft operated nation-
wide. It is certificated and inspected by the United States 
Coast Guard.
    The first Coast Guard officer sent to the scene for the 
accident investigation was the chief of the merchant vessel 
safety department, who has the dual responsibility for 
inspections and investigations. We believe it is obvious that 
an independent investigation is required, but the Coast Guard 
has declined to participate with us, and they have insisted on 
custody of the wreckage in that accident, notwithstanding that 
they were the ones responsible for the inspection.
    The NTSB investigates only about a dozen of the most 
important marine accidents. The Coast Guard investigates 5,000. 
This will not change under our proposal. The only implication 
our proposal has for the Coast Guard is that there would be 
fully independent review of their procedures, just as there is 
for other modes of transportation, whether it be the FAA, the 
FRA, or the FHWA. It will not affect their search and rescue 
operations, it will not confuse on-scene incident command, and 
it will not disrupt their enforcement activity.
    The Coast Guard's use of military investigative procedures 
to investigate major civilian accidents is ineffective and 
counterproductive. They focus on finding fault rather than 
seeking ways to prevent similar accidents from recurring, and 
the process currently in place gives the Coast Guard the power 
to veto an NTSB independent investigation.
    A third requested amendment involves four management 
revisions which, if adopted, will give us the ability to hire 
and retain the best-qualified individuals. These revisions 
include reasonable rates for overtime pay for our 
investigators, accepted service appointment authority, 
discretionary base pay supplement for employees engaged in 
investigative work, and retirement at age 55 with 20 or more 
years of service.
    A fourth amendment will extend the same protections 
currently provided for cockpit voice recorders to video and 
voice recorders in all modes of transportation. We believe 
there can be great safety advances if video and voice recorder 
technologies are applied to all modes of transportation. We 
need to make sure that a lack of disclosure protection is not 
an impediment to their introduction and use.
    We have proposed other amendments, and I have supplied 
detailed support for them in our written testimony.
    Finally, Mr. Chairman, I would like to briefly mention one 
more important issue in the RAND study, and that is the 
workload of our staff and the knowledge base they will need to 
successfully accomplish our mission.
    As the RAND report will probably conclude, we need greater 
depth in many of our high-skilled positions, and our 
investigators must keep current in the latest technologies and 
procedures. Mr. Chairman, that takes time. Just to get one of 
my investigators rated on an airbus aircraft requires 6 weeks 
of training.
    Our authorization request will allow us to meet that need 
and to continue to be the world's foremost accident 
investigative agency.
    Mr. Chairman, the Department of Transportation is proposing 
$3.4 billion for direct safety funding in its total budget of 
$50.5 billion for this coming fiscal year. The NTSB's request 
of $73 million reflects just 2 percent of the Department of 
Transportation's safety program request. Mr. Chairman, I 
believe that that investment is the most cost-effective 
investment this Committee and Congress can make to ensure that 
American taxpayers are assured that their transportation safety 
concerns are being protected through independent oversight.
    That concludes my statement, Mr. Chairman. I have a number 
of the members of the staff here, and we will be glad to 
attempt to respond to any of the questions or concerns that the 
Committee members might have.
    [The prepared statement of Mr. Hall follows:]
          Prepared Statement of Hon. James E. Hall, Chairman, 
                  National Transportation Safety Board
    Chairman McCain and Members of the Committee, I am pleased to 
appear before you today on behalf of the National Transportation Safety 
Board regarding our request for reauthorization.
    Before beginning, I would like to thank this Committee for its 
continued support of the Safety Board and its mission. The Safety 
Board's effectiveness depends on a sufficient level of resources, which 
you have always provided, to enable us to make timely and accurate 
determinations of the causes of accidents; to issue realistic and 
feasible safety recommendations; and to respond to the families of 
victims of transportation disasters in a timely, compassionate, and 
professional manner following these tragedies. We believe the Safety 
Board's 18-cent annual cost per person to the American public has 
resulted in countless lives saved, numerous injuries prevented, and 
millions, if not billions, of dollars in property damage being averted.
    Since I last appeared before you regarding the Safety Board's 
reauthorization on April 16, 1996, we have contracted with the RAND 
Institute of Civil Justice to perform an in-depth review of the Board's 
investigative process; reorganized the Office of Surface Transportation 
Safety into separate modal offices; reorganized the Office of Safety 
Recommendations to include an accomplishments division; created a 24-
hour Communications Center; and established an Office of Family Affairs 
as required by the Aviation Disaster Family Assistance Act of 
1996.Before updating you on specific modal issues, I would like to 
briefly discuss the items mentioned above.
                    rand institute of civil justice
    Last year the Safety Board asked the RAND Corporation to conduct an 
independent review of two critical areas. First, we asked them to 
examine and evaluate the Safety Board's workload, staffing levels, and 
training programs in light of the emerging trends in aviation. Second, 
we asked them to review the Safety Board's party system. We asked them 
to make recommendations to us in both areas to ensure the Safety 
Board's continuing ability to accomplish its mission.
    While the study primarily focused on aviation issues and 
challenges, there are a number of areas that will have agency-wide 
applicability. We anticipate receiving the final report shortly, and we 
will share it with the Committee as soon as we receive it.
    As you know, Mr. Chairman, the Committee staff has been briefed by 
the RAND Corporation, but I would like to highlight a few of their 
findings and preliminary recommendations.
    Probably the most important issue raised in the report indicates 
that complex and contentious accident investigations, such as the 
recently completed USAir Flight 427 investigation and the on-going TWA 
Flight 800 investigation, are likely to be the norm in the future 
rather than the exception. These investigations have been extremely 
taxing to the Safety Board and its personnel; if we are to be prepared 
to investigate similar accidents, we must adopt a number of new and 
different strategies.
    We need new management and financial practices that will ensure 
financial and programmatic effectiveness for the 21st Century. We began 
the process this year by implementing a new financial management 
system. In addition, we will hold a senior management retreat in 
September to design new strategies that will help us implement the RAND 
recommendations.
    The second most important issue in the RAND report focuses on the 
workload of our staff and on the knowledge base they will need to 
successfully accomplish our mission. We need greater depth in many of 
our high-skill positions and we must have the resources to keep our 
investigators current in the latest technologies and procedures. I have 
made this a top priority this past year and for the first time the 
training requests are fully funded. The Board is also proposing in its 
authorization request a number of administrative personnel changes that 
will allow the Safety Board to successfully compete in today's 
marketplace.
    And finally, we anticipate that the RAND Corporation will make 
recommendations concerning the party system--the way in which we 
conduct our investigations. As you know, the party system has been in 
effect with regard to Safety Board investigations for almost 30 years. 
The Safety Board itself has periodically reviewed the party process, 
but this is the first time that we have had an independent, outside 
expert look at our investigative procedures. There have been a number 
of calls recently to revisit this subject. Interestingly, these calls 
have come from two extremely different perspectives. On one hand, some 
industry representatives would like to expand their role in the 
process, particularly as it relates to involvement in the analysis 
stage of the Board's work. On the other hand, some family members of 
victims and plaintiffs' attorneys believe just as strongly that the 
current system gives party members what amounts to a privileged 
position in terms of future litigation while giving them no role.
    Although we do not expect RAND to recommend significant changes to 
the party system, we understand that certain adjustments will be 
recommended regarding a broadening of the probable cause statement and 
greater usage of outside laboratories and experts during the actual 
accident investigation phase.
    We look forward to sharing a copy of the final report with all of 
you so that together we can evaluate its recommendations. I hope that 
the RAND report will serve as a blueprint for the Safety Board as it 
moves forward into the next Century.
           new structure for the surface transportation modes
    Over the past few years, the surface modal programs have made 
significant contributions to safety because of the attention and 
dedication of the staff. In an effort to make the surface modal offices 
even more effective, I reorganized the management structure of the 
Office of Surface Transportation Safety. Each of the four surface modal 
divisions became offices reporting directly to the Board's Managing 
Director in October 1997. I believe the modifications have improved 
communications and the timeliness of investigations and reports, and 
have increased the Board's impact on improving transportation safety in 
the surface modes.
          office of safety recommendations and accomplishments
    Safety recommendations are the primary tool used by the Board to 
implement safety improvements and prevent future accidents. Eighty 
percent of our safety recommendations have been implemented over the 
years across the modes, helping us achieve our ultimate goal of saving 
lives, reducing injuries, and preventing future accidents.
    The Office of Safety Recommendations was recently centralized by 
moving recommendation specialists from the other modal offices into the 
Office of Safety Recommendations and Accomplishments. These individuals 
no longer have collateral duties, but focus full-time on recommendation 
development, implementation, and followup. We have also increased our 
emphasis on an internal review process that assesses safety proposals 
submitted by our nine regional offices, and strengthened a program that 
recognizes our investigators for improving safety without going through 
the formal recommendation process.
    The Board uses its ``Most Wanted'' list of safety issues to 
highlight recommendations with the greatest impact on transportation 
safety. Since March 1996, 15 issues have been removed, 7 issues have 
been added, and 10 items remain on the list. We continue to believe the 
items on the ``Most Wanted'' list have the greatest potential to save 
lives, and they continue to receive aggressive follow up. A copy of the 
current ``Most Wanted'' list is attached.
                     24-hour communications center
    Following the ValuJet Flight 592 and TWA Flight 800 accidents, it 
became obvious that the Board needed to improve coordination and 
communications from the time we are notified of an event through the 
on-scene phase of an accident investigation. In February 1997, I 
established a 24-hour Communications Center in response to our critical 
need to centrally coordinate accident communications and launch 
operations.
    The Communications Center has relieved the Board's investigators of 
launch logistical responsibilities by coordinating travel, lodging, on-
scene command center, and telephone and equipment needs. The center 
runs interference for the en route go-team; gathers accident 
information; and alerts local police and fire/rescue personnel of the 
details regarding the team's arrival. Once on-scene, the investigator-
in-charge can check with the Communications Center to receive the 
latest information needed to efficiently initiate the investigation, 
coordinate activities between agencies, or to arrange telephone 
conferences. In addition, the Communications Center provides assistance 
during international investigations that literally involve 24-hour 
communications.
    The Board and its employees have found the Communications Center to 
be an invaluable resource--a resource whose responsibilities change as 
the needs of our employees and the nature of our investigations change.
                        office of family affairs
    Mr. Chairman, your Committee was instrumental in providing the 
Safety Board with the additional responsibility of coordinating the 
Federal effort to the families of the victims of major aviation 
accidents. Since this legislation was enacted in October 1996, we have 
hired a family affairs staff of seven individuals; developed, in 
concert with family advocacy groups and the aviation industry, a Safety 
Board family assistance plan; received assurances from foreign and 
domestic air carriers regarding their plans to assist family members 
following an aviation disaster; co-chaired, with the Secretary of 
Transportation, a task force on assistance to families of aviation 
disasters; hosted an international symposium on family affairs; 
completed memoranda of understanding with seven Federal organizations 
and the American National Red Cross; met with dozens of industry and 
local organizations regarding the importance of family assistance; and 
entered into negotiations with the Air Transport Association regarding 
extraordinary accident investigation costs, particularly in relation to 
identification and recovery of accident victims. We are also currently 
working with other Federal agencies to develop assistance plans for 
government employees traveling on government-owned or chartered 
aircraft.
    In addition, we have launched our family affairs staff to seven 
aviation accidents, four highway accidents, two marine accidents, and 
an Amtrak accident. We also continue to assist family members of four 
aviation accidents, including those of TWA Flight 800. For example, at 
the request of TWA Flight 800 family members, last fall Safety Board 
staff and family members sorted the personal effects and organized the 
items for display in the Calverton facility. In January, family members 
were invited to view and claim recognized items. In addition, we will 
again open the Calverton facility for family viewing of the 
reconstruction and personal effects this weekend to commemorate the 
third anniversary of the accident.
    Mr. Chairman, we saw a marked difference in how family members were 
treated following the accident involving Swiss Air Flight 111 as 
compared to previous aviation disasters. It was due largely to the 
Family Assistance Act of 1996, and legislation enacted in 1997 that 
extended this Act to foreign carriers flying into and out of the United 
States, that Swiss Air and Delta Airlines were so well prepared to 
handle family members following that tragedy, and you and the members 
of this Committee should take pride in your actions in regard to this 
endeavor.
                        safety board activities
    Before I present our request for our three-year reauthorization, I 
would like to highlight some Board activities since our last 
reauthorization hearing.
    Since our last appearance before this Committee regarding 
reauthorization, we have investigated nearly 7,000 aviation accidents, 
and issued 20 major aviation reports; 147 highway accidents and issued 
11 major highway reports; 21 marine accidents and issued 8 major marine 
reports; 54 pipeline/hazardous materials accidents and issued 7 major 
pipeline/hazardous materials reports; and 165 railroad accidents, and 
issued 13 major railroad reports.
    In addition, we have issued a total 1,045 safety recommendations. 
The modal breakdown follows: aviation--377; highway--155; intermodal--
15; marine--209; pipeline--100; and railroad--189.
Aviation
    The investigation of the accident involving USAir Flight 427 was 
the longest and one of the most complex investigations in Safety Board 
history. The Board completed its investigation in March 1999. One of 
our early safety recommendations, issued in October 1996, resulted in a 
redesign of the Boeing 737 servo valve to preclude rudder reversals. In 
addition, Board recommendations addressed the redundancy of the Boeing 
737 rudder system design; advanced maneuver training for air carrier 
pilots; and increased flight data recorder parameters. There are over 
3,000 Boeing 737 aircraft flying somewhere in the world today, with 
over 1,300 of those registered in the United States, and we believe our 
recommendations will go far in making a safe aircraft safer.
    Additionally, the Safety Board is continuing its investigation into 
the explosion and crash of TWA Flight 800 that killed all 230 on board 
near East Moriches, New York, in July 1996. This investigation has 
resulted in the largest aircraft reconstruction in aviation history, 
and has already resulted in numerous safety recommendations, dealing 
with issues such as explosive fuel mixtures in fuel tanks and the fuel 
quantity indication system wiring. We expect to complete the 
investigation of this accident by the end of this year or early next 
year.
    The most recent major aviation accident occurred June 2, 1999, at 
Little Rock, Arkansas, and involved American Airlines Flight 1420, an 
MD-80. The airplane crashed after landing in thunderstorms and killed 
11 people, including the captain. This accident involves issues the 
Board has been looking into for several years--weather conditions and 
pilot fatigue. The Board is in the early stages of its investigation, 
and we will keep you advised of our findings.
    The rapid growth of international aviation and projections for 
continued growth continue to place increased responsibilities on the 
Safety Board in the international arena. In calendar year 1998, the 
Board supported about 130 international accident investigations--both 
on scene and in our laboratories. Because of this increase in 
international activity, a coordinated effort was deemed necessary, and 
I named a senior Safety Board aviation manager as the Board's 
international liaison, responsible for coordinating all international 
activities. This has resulted in the formulation of an outreach program 
to our counterpart agencies and aviation organizations throughout the 
world, which enables the Board to promote U.S. aviation safety goals 
and objectives.
Highway
    Airbag-induced injuries and child passenger safety are just two of 
the highway safety issues reviewed by the Board in recent years. As a 
result of safety recommendations and reports issued by the Board, there 
is improved public awareness with regard to problems that have been 
identified with airbags and current airbag technology and the need to 
place children in the back seat of a vehicle. Cut-off switch hardware 
has been developed, and the National Highway Traffic Safety 
Administration has issued a notice of proposed rulemaking to require 
advanced airbags.
    The Board also conducted a special investigation into selective 
motorcoach issues. Driver fatigue and poorly maintained or out-of-
adjustment brakes were identified in two accidents investigated, issues 
about which the Board has previously expressed concern. It was also 
noted that had the Federal Highway Administration had a more 
restrictive compliance review process in place for motorcoaches, these 
two accidents and others may not have occurred.
    Mr. Chairman, the Safety Board is currently monitoring heavy truck 
and motorcoach safety operations, and in April we held the first of 
four public hearings to review the conditions and factors that relate 
to truck/bus-related crashes and evaluate the effectiveness of federal, 
state and industry oversight of truck and bus safety. In September, we 
will hold a hearing on technology applications to improve heavy vehicle 
safety in Nashville, Tennessee, and later this year we will hold a 
hearing on the safety ramifications of NAFTA. We will keep the 
Committee advised of Board activities regarding this important safety 
issue.
Pipeline/Hazardous Materials
    Mr. Chairman, my testimony in 1996 mentioned the dangers of 
hazardous materials spills from ruptured railroad tank cars. I am 
pleased that the Federal Railroad Administration, the Association of 
American Railroads, and other industry organizations have taken a 
number of steps in response to safety recommendations on the testing 
and inspection standards for railroad tank cars. These organizations 
have:

    <bullet> evaluated nondestructive testing techniques to determine 
how these techniques can best be applied to the periodic inspection and 
testing of tank cars transporting hazardous materials;
    <bullet> initiated a longer-term project to implement inspection 
and testing programs and requirements that are based on damage-
tolerance principles; and
    <bullet> implemented a damage analysis on a limited basis that is 
continuing to move toward full damage tolerance assessment.

    The Safety Board also released a special investigation report and 
20 safety recommendations regarding brittle-like cracking in plastic 
pipe for gas service. The use of plastic pipe to transport natural gas 
has grown steadily over the years because of the material's economy, 
corrosion resistance, light weight and ease of installing and joining. 
However, our investigation showed that the procedure used to rate the 
strength of plastic pipe may have overrated the strength and resistance 
to brittle-like cracking of much of the plastic pipe used for gas 
service from the 1960s through the 1980s. Gas pipeline operators have 
had insufficient notification of this susceptibility to premature 
brittle-like cracking and, therefore, may not have implemented adequate 
pipeline surveillance and replacement programs for their older plastic 
piping. Safety recommendations to the Research and Special Programs 
Administration and the industry regarding this matter were issued.
    The most recent major pipeline accident being investigated by the 
Safety Board occurred June 10, 1999, at Bellingham, Washington. A 16-
inch diameter pipeline ruptured, resulting in an ignition and release 
of over 200,000 gallons of gasoline. This accident resulted in the 
death of an 18-year-old man and two 10-year-old boys. This 
investigation is in its very early stages, and we will keep the 
Committee advised of our investigation as information is gathered.
Marine
    The Board issued urgent recommendations on the installation of 
locally sounding alarms for passenger and crew spaces as a result of 
the Universe Explorer and Vista Fjord accident investigations, and the 
cleaning of laundry ducts as a result of the fire on the cruise ship 
Ecstasy. Additional safety improvements were called for in other marine 
reports including reducing flammability of construction materials, 
requiring smoke detectors in living spaces, and requiring pre-departure 
fire safety briefings on small passenger vessels.
    The Board also explored the need for a review of Coast Guard 
watchstanding and communications procedures at a recent public hearing 
related to an on-going accident investigation, as well as their 
procedures to release information to other government agencies and the 
public. This followed the tragic deaths of four recreational boaters on 
board the Morning Dew in Charleston Harbor. A Safety Board special 
investigation of these issues is underway.
    One of the most recent major marine accidents being investigated by 
the Safety Board occurred in Hot Springs, Arkansas, on May 1, 1999, 
that resulted in the loss of 13 lives. This accident involved a vessel 
commonly known as a duck, one of at least 60 converted World War II 
amphibious craft that operate nationwide and was certificated and 
inspected by the Coast Guard.
Railroad
    Along with its regular accident investigation duties, the Safety 
Board conducted two public hearings into safety problems at the Union 
Pacific Railroad Company. Prior to our first hearing in March 1998, 
Union Pacific had numerous accidents, including several collisions. The 
Board's hearing focused on much-needed safety changes at the Union 
Pacific Railroad, including: hiring 114 train dispatchers, with plans 
to hire 100 more in 1999; adding the position of Director of Safety and 
Quality Assurance to oversee the entire safety and dispatching program; 
instituting a napping policy throughout its system; hiring 
approximately 6,000 new employees; improving the accuracy of train 
line-ups; and simplifying the organization of the railroad by giving 
each region total autonomy to manage day-to-day operations.
                        reauthorization request
    Mr. Chairman, the Board is requesting nine changes to its 
authorizing authority. Attached to our statement is a copy of our 
formal request, but a summary of each issue follows.
Marine jurisdiction on the territorial seas
    This proposed amendment is a clarification of Safety Board marine 
investigation jurisdiction to 12 miles from the coast. On December 27, 
1988, President Reagan by proclamation extended the territorial seas of 
the United States to 12 miles from the coast. Jurisdiction to the 12-
mile limit is consistent with the limit exercised by many nations and 
is based on international law. National Transportation Safety Board 
marine jurisdiction is expressed as jurisdiction over accidents on the 
navigable waters or territorial seas of the United States. NTSB 
jurisdiction to 12 miles would, therefore, appear to have been 
established by the 1988 proclamation. The Independent Safety Board Act 
already references Federal Aviation Act definitions in the aviation 
area. In keeping with this approach, the proposed amendment would use a 
recently enacted Coast Guard definition to define jurisdiction at the 
12-mile limit, and would clarify the Safety Board's jurisdiction.
Accident scene priority
    Enforcement activity is often inherent in the post-accident 
investigations of the Department of Transportation (DOT) 
administrations, and many regulatory requirements are backed by 
criminal sanctions. The Safety Board and the DOT agreed in 1975 that 
DOT might undertake a separate enforcement investigation of an accident 
where participation in a Safety Board-led investigation could 
jeopardize DOT's enforcement work. Amendments to the Independent Safety 
Board Act in 1981 making NTSB priority explicit--with the exception of 
major marine investigations--had the effect of making any such 
enforcement investigation subordinate to the priorities of the safety 
investigation. We believe there is a significant need for a restatement 
of Congressional intention in this area because of the increasing 
likelihood that agencies other than those of DOT will be on-scene and 
in competition with the work of NTSB.
    In almost all of the recent major aviation investigations conducted 
by NTSB, parallel criminal investigations were undertaken. Examples 
include the TWA Flight 800, the ValuJet Flight 592 crash near Miami, 
the FineAir cargo crash in Miami. The Amtrak collision with a flatbed 
truck in Bourbonnais, Illinois and the pipeline accident in Bellingham, 
Washington, are also under local criminal investigation. Similarly, 
many maritime accidents become the occasion for criminal investigation 
by the Environmental Protection Agency, while fires aboard vessels draw 
interest from the arson branch of the Bureau of Alcohol, Tobacco, and 
Firearms.
    Interagency coordination between safety investigative agencies and 
criminal investigative agencies can be complicated. Although the Safety 
Board believes that Congress assigned priority to NTSB accident 
investigations, we readily acknowledge that the exigencies of criminal 
investigation require special care in the handling of evidence at the 
scene, in the manner of witness interviews, and in the release of 
information to the public. We typically accommodate such requirements 
within our investigative processes. However, without a clear statutory 
premise for NTSB priority, the ready negotiation of such compromises 
and accommodations will remain dependent on circumstances and 
personalities.
    Although the existing statement of priority is sufficient for most 
purposes, NTSB seeks clarification on the matter of accidents that may 
have been the subject of intentional acts of destruction. Many of the 
criminal investigations that arise out of transport accidents are 
consequences of accidental behavior and Safety Board jurisdiction and 
primacy are never in doubt. There are circumstances, however, where the 
nature of the destructive act is initially unknown and may be 
intentional, as opposed to accidental, and here NTSB priority, while 
established through precedent and international convention, could use 
explicit Congressional restatement. To ensure that NTSB will continue 
to be capable of exercising coordinated leadership in future transport 
tragedies, we seek an explicit statutory basis for the traditional 
exercise of NTSB jurisdiction in the wake of the destruction of the 
instrumentalities of transport, whether accidental or otherwise. Such a 
clarification would not affect the authorities of any other federal 
agency, nor be disruptive of the NTSB's longstanding policy of 
accommodating its processes to the special needs of criminal 
investigation when criminal behavior is suspected or demonstrated.
Personnel management
    The Board is requesting four management revisions intended to 
provide the National Transportation Safety Board with flexibility in 
its personnel management policies necessary to enhance our ability to 
hire and retain the best qualified individuals. These changes are 
necessary to guarantee our continued ability to conduct high quality 
accident investigations in the face of increasingly sophisticated 
technologies and ever more complex systems. The changes are consistent 
with provisions permitted to other transport agencies and are in 
keeping with the need to modernize the federal workplace. A detailed 
justification of the requested changes is attached. Below is a list of 
the revisions requested:

    <bullet> Prescription of Reasonable Rates of Pay for Overtime--this 
amendment would permit the Safety Board to prescribe reasonable rates 
of overtime pay, similar to that already afforded to the Coast Guard.
    <bullet> Excepted Service Appointment Authority--this amendment 
would allow the Safety Board to recruit prospective employees using an 
excepted service authority, with the option of converting the 
individual after a probationary period to competitive service.
    <bullet> Discretionary Base Pay Supplement for Employees Engaged in 
Investigation Work--this amendment would provide the Safety Board with 
the ability to compensate employees directly engaged in core mission 
accident investigation duties at rates commensurate with their specific 
achievements and private sector or government alternatives.
    <bullet> Retirement at Age 55 With 20 or More Years of Service--
this amendment would permit Safety Board employees to retire at age 55 
with 20 or more years of service without penalty, and provide the 
agency with a powerful tool to convince experienced professionals to 
choose a career with the Board.
Technical service agreements and collections
    Annex 8 to the Chicago Convention, Airworthiness of Aircraft, 
specifies that the States of design and manufacture monitor the 
continuing airworthiness of their aircraft wherever they are operated, 
so that corrective actions may be disseminated to operators of the 
aircraft worldwide. In order to fulfill those obligations, the United 
States, through the Safety Board, participates in the investigation and 
provides support to the foreign investigative authorities. In addition, 
States with smaller domestic airline structures often ask for our 
technical assistance. The Safety Board is willing and eager to provide 
whatever assistance is sought and, given the safety benefits possible, 
we do not insist on compensation in all cases.
    In addition to on-scene investigative assistance, NTSB also 
provides classroom training in accident/incident investigation and 
prevention, both in the United States (at NTSB offices) and at foreign 
agencies. For many years, we have done so both with or without written 
agreements with the foreign safety agency or the foreign government.
    As the independent investigative agency for the United States, the 
NTSB needs to enter into complementary agreements that focus on 
accident/incident investigation and prevention, and we seek a 
clarification regarding our authority to initiate and negotiate 
agreements on training and technical services.
    The Department of State (DOS) does not believe we have the 
authority to enter such agreements. Although we believe we do, we have 
been unsuccessful in assuring DOS that Congress intends for the Safety 
Board to negotiate directly for the provision of our services, 
notwithstanding that we have done so previously. Therefore, we believe 
a clarification of existing authority is necessary. Even if this would 
be considered a new authority, we believe it is vital to our ability to 
maximize our impact on international aviation safety, and we see no 
downside to permitting NTSB, similar to the authority already given to 
the FAA, to deal directly with our foreign counterparts regarding 
training and technical services.
Collection for production of dockets
    This amendment would enable the Board to recover its costs 
associated with reproduction and dissemination of its products. The 
Safety Board currently provides free of charge copies of accident 
dockets to persons (or their survivors) and organizations involved in 
accidents. Others who request copies of dockets are referred to a 
clearinghouse contractor or to the Department of Commerce's National 
Technical Information Service for copies of Board publications.
    Because the costs of reproducing and distributing its products come 
out of the Safety Board's operating budget, the clearinghouse 
contractor arrangement enables the Safety Board to control its costs, 
but results in poorer service to the American public because of 
timeliness issues and higher expenses for our products. The authority 
requested by the Board would permit reasonable fees to be charged for 
reproduction and distribution of its products, whether paper-based or 
on various electronically readable media, and to apply collected fees 
toward the reproduction expenses.
Recorders
    This proposed amendment would provide for the withholding from 
public disclosure of voice and video recorder information comparable to 
the protections provided for cockpit voice recorders (CVR). The Safety 
Board has open recommendations that call for voice recorders on 
locomotives and marine voyage event recorders, which will include 
bridge audio information on vessels over 500 gross tons. In addition, 
the Safety Board's 1990 report on the accident involving USAir Flight 
105 at Kansas City International Airport, Missouri, outlined the need 
for cockpit video recordings and pledged that the Safety Board would 
monitor and evaluate the progress of video recording.
    There appears to be some reluctance on the part of the 
transportation industry and labor to endorse the use of audio recorders 
for accident and incident investigations, stemming from uncertainty 
regarding the ultimate use of the information. An inclusion of 
provisions in the Safety Board Act that would withhold audio recordings 
from public disclosure should facilitate acceptance of these devices.
    The requirement for voyage event recorders on some ships appears to 
be generally accepted. NTSB proposes to treat the audio portion of 
these tapes in the same fashion as we handle CVR tapes, but absent 
explicit statutory language, we may not be able to do so.
    Video technology has progressed to the point where it has become 
technically feasible to produce and crash-protect cockpit video 
recordings that meet the needs of accident investigators, and video 
recorders for all modes of transportation may become a reality in the 
not-too-distant future. It would be appropriate and timely to ensure 
that there are no legislatively-defined differences between the 
treatment of new video technology and existing voice recorders, as the 
lack of statutory protection for video technology would serve to limit 
its acceptance.
Authorization of appropriations
    This proposed amendment provides the authority to appropriate funds 
for the National Transportation Safety Board for fiscal years 2000, 
2001, and 2002.
    The requested authorization levels are $57.0 million and 402 full-
time equivalent (FTE) positions for fiscal year 2000; $73.0 million and 
470 FTE positions for fiscal year 2001; and $76.4 million and 470 FTE 
positions for fiscal year 2002. The requested authorization for fiscal 
year 2000 is consistent with the President's budget submission, while 
fiscal years 2001 and 2002 reflect the position level requested in our 
FY 2000 OMB submission. The request also includes funding for 
additional training, as well as computer, laboratory, and investigative 
equipment, items that are necessary to ensure the Board's continued 
efficiency and technical competence.
Marine priority
    This amendment would give the Safety Board priority in marine 
accidents it investigates. The Safety Board currently maintains primacy 
in accident investigations of all other modes of transportation: 
aviation, railroad, highway, pipeline, and hazardous materials. We also 
maintain primacy in all marine accidents that do not meet the criteria 
for a major marine accident.
    However, uncertainty as to our investigators' role in a Coast Guard 
investigation, minimal opportunity to interview witnesses, and lengthy 
Marine Boards that generate situations in which witnesses cannot recall 
what they had seen or heard, are just a few of the reasons why Safety 
Board priority in marine accident investigations is necessary. Safety 
Board priority has worked well for many years in other modes of 
transportation and those using marine transportation should be given 
the full benefit of a similar system.
Public aircraft investigation clarification
    This amendment would clarify language in Public Law 103-411 
regarding the investigation of public use aircraft. This public law 
gave the Board the authority to investigate public use aircraft but did 
not provide the same guidelines as civil aviation investigations. We 
believe this amendment to be a clarification of Congress' original 
intent, and that the requested authorities are essential to an 
independent investigation.
    Mr. Chairman, that completes my statement. I will be happy to 
respond to any questions you may have.

    Senator Stevens. Do any of the other members have comments, 
Mr. Chairman?
    Mr. Hall. No, sir. I might comment, Mr. Chairman, that I 
have brought with me this morning some material that the 
Committee might be interested in seeing that is from the 
arrester bed at the end of Kennedy Airport up in New York. This 
arrester bed was successful in arresting the runway overrun of 
a Saab 340 with a number of souls aboard, and we will be 
looking as a part of our Little Rock investigation as to 
whether this type of arrester bed, which is now in place, which 
originated as an NTSB recommendation and was implemented by the 
FAA, might have had an effect in preventing the tragedy at 
Little Rock.
    The Chairman. Thank you. I just want to talk generally 
about aviation, Mr. Chairman, and I know we are singing from 
the same page, but I am very concerned.
    Obviously, I am in airports all the time. I can tell the 
difference in the increase in passengers. I can tell the 
increase in the strains on the air traffic control system. All 
of these statistics have been borne out by the commission that 
reported out about a year-and-a-half ago, stating that if we do 
not do something, every day in an airport in America is going 
to be like the day before Thanksgiving, and yet we cannot even 
get an agreement on an FAA reauthorization bill because people 
are worried about take-offs and landings at Reagan National 
Airport.
    There are provisions of the FAA reauthorization bill which 
are critical if we are going to even begin to address some of 
these problems.
    I guess I am just venting, but I would be interested in 
hearing if you have any additional views on this aviation 
problem that is obviously upon us.
    I fly to New York a fair amount. Now, I always go to the 
shuttle at least an hour before I would otherwise do so because 
I know it is going to be an hour late, and we are going to sit 
on the runway on a perfectly clear day because the air traffic 
control system is saturated with other airplanes from other 
places. It has just now become almost a way of life.
    I am one of those who loves to beat up on the airlines. It 
is a great pleasure to do so--they cannot fight back very 
well--and we reported out the passengers bill of rights, which 
I think was very much needed, that Senator Wyden and I worked 
on together, but also we have got other problems that we are 
not addressing, in the way that we should. This is not just the 
Congress, but also the Administration must act.
    I think that your voice is respected. I think your views, 
when exposed throughout the nation in various forms, are very 
important, and I hope you will spend a lot more time and effort 
warning people that there is a certain inevitability associated 
with this trend that is going on, which you are showing in 
these charts.
    I would be glad to hear your response and comments, or any 
other Board Members.
    Mr. Hall. Mr. Chairman, the charts and statistics that I 
have brought with me outline the tremendous importance of 
transportation. They also show the tremendous transportation 
growth that we are going to see in the next 10 years in this 
country. I believe that many of the modal agencies now, and 
many of them are led by able and responsible public servants, 
but the Department of Transportation is going to have to be 
proactive in preparing and planning for this growth.
    Runway incursions continue to get worse year after year, 
both in terms of the number of incidents and the frequency. We 
are averaging a runway incursion a month at the major New York 
airports, and so I have been very pleased----
    The Chairman. Incursion means a plane being on the runway 
when another one is either taking off or landing?
    Mr. Hall. Or some other type of ground interference on the 
concourse at the airport.
    I think this current Administrator is doing an excellent 
job in trying to address the change in the culture. I think the 
Board needs to continue our oversight, and be sure that as 
these situations are brought to the attention of the 
administration and action is taken.
    The Chairman. If you had to prioritize the major obstacles, 
how would you rank them? There's the air traffic control system 
modernization, there's a lack of increased capacity in the 
airports, there's the aging aircraft you point out. Would you 
give us some idea of your priorities as far as these challenges 
are concerned?
    Mr. Hall. Clearly the ATC system is, I think, probably the 
most critical at this point. Aging aircraft can be 
appropriately addressed within the existing structure and 
framework.
    I think the air traffic control system is going to have to 
be adjusted and adapted to the type of traffic we are talking 
about. I know there is a great deal of work going on in that 
area, but I would say that clearly is to me personally the 
greatest challenge that I see out there. If these numbers are 
going to be realized, then there is going to have to be great 
improvement in that area.
    The Chairman. Would any of the members like to make any 
comments?
    Mr. Hall. Let me get Dr. Loeb up here, our Director of 
Aviation Safety. I brought all of my office heads here, Mr. 
Chairman, so if we get into a specific area I would like to 
refer to them. Dr. Loeb is head of our Office of Aviation 
Safety.
    The Chairman. Welcome, Dr. Loeb.
    Dr. Loeb. Thank you. I think Chairman Hall covered it quite 
well. I think that certainly the air traffic control system 
represents one of the biggest challenges facing air 
transportation, but I think that also gets into the issue of 
runway incursions as well.
    I think there is a need for adequate radar surveillance, 
and weather radar as well, to keep our air traffic moving 
safely. There were two recent incidents, one in Chicago and one 
at JFK New York, in which two large airplanes almost came 
together in some fashion similar to what happened at Teneriffe.
    The Chairman. I love your terminology, two aircraft almost 
came together. I like that.
    [Laughter.]
    Dr. Loeb. There was a near collision, or a miss that was 
fairly close, and it is worrisome and of great concern. I think 
certainly air traffic control is one of the main issues, as 
Chairman Hall indicated.
    The Chairman. Maybe, Mr. Chairman, you could send us in 
writing for our guidance for our upcoming hearings, your 
priorities as far as the challenges that have to be addressed 
in this booming, clearly, crisis or gridlock situation, not to 
mention the safety aspects of it.
    Mr. Hall. We will do that, Mr. Chairman. Let me say, with 
Senator Stevens sitting there looking at me, that aviation is 
the most essential and most important in the State of Alaska. 
We completed an Alaska safety study, and we are in the process 
of continuing to follow up to be sure that those 
recommendations are implemented.
    Again, I brought this arrester bed material this morning. 
We need to be looking at whether weather radar technology 
should be at more than just the 40 largest airports in the 
United States.
    As important as those 40 large airports are, I think local 
community airports should have flexibility to ensure that they 
have all the safety that might be available for their 
passengers and the citizens. That may require some action by 
this Committee, but that is another area that I think needs to 
be addressed.
    The Chairman. Senator Stevens.
    Senator Stevens. Mr. Chairman, I am constrained to say that 
perhaps some of that travel money you were looking at was 
involved in following up on my suggestion that we wanted a 
study of general aviation safety in Alaska, and it has been a 
rather intense one. Our statistics----
    The Chairman. Did they have to go to Paris?
    [Laughter.]
    Senator Stevens Well, I was in Paris.
    But I would like to ask you, Mr. Hall, this relationship 
that you mentioned in your statement with the Coast Guard 
bothers me. The Coast Guard is subject to our jurisdiction, 
too. I think maybe we ought to undertake a role of trying to 
mediate that dispute. That certainly should not exist between 
two agencies which should have the same goal, and that is to 
improve safety of our vessels at ports of call in the United 
States, so I would be happy to follow that up with you.
    Do you work with NIOSH at all, the National Institute on 
Occupational Safety and Health?
    Mr. Hall. Yes, sir, and we follow up. We do not work 
directly with them, but we follow some of the occupational 
safety concerns, particularly in the area of fishing vessels. 
We do not really interface that much with them.
    Senator Stevens. They have done some interesting studies up 
our way, and I think they might dovetail with the ones you are 
doing, too.
    Mr. Hall. I met with them on several occasions, sir, in 
Alaska at their office.
    Senator Stevens. I mentioned to you briefly before the 
hearing started the question I have about facilities. As we 
modernize more and more FAA nav aids and other facilities are 
remoted, it is leading to some difficulty in Alaska.
    Have you ever studied the safety aspects of the changing 
navigation system of the FAA?
    Mr. Hall. I would like to ask Dr. Loeb to comment on that 
if he could.
    Dr. Loeb. Senator, we completed a couple of safety studies 
regarding aviation in Alaska. One was done in the early 
eighties, and a more recent report was completed in the 
nineties. We had a chance to look at the implications of the 
beginning of the automation and removal of human beings, 
especially in the weather forecasting, and providing weather 
services, and we believe that is an issue.
    However, I think there is technology that can help until 
that technology is really implemented fully. It is going to be 
a problem, and the lack of human beings actually observing and 
forecasting and providing information to pilots in remote 
regions is a problem.
    Senator Stevens. As the Chairman mentioned, 77 percent of 
intercity travel in our State is by air, and I think that we 
will be very interested in your recommendations. Will we get 
recommendations concerning the outcome of your report?
    Dr. Loeb. We have made some recommendations, and there are 
likely to be more, yes, sir.
    Senator Stevens. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you. Senator Wyden.
    Mr. Hall. Mr. Chairman, if I could, if the Senator would 
indulge me I would like to respond on the subject of the travel 
budget.
    The Chairman. Sure.
    Mr. Hall. Historically, Mr. Chairman, the travel budget of 
the NTSB has been left essentially to the individual Members. 
Because of the concerns of this Committee, I have put a budget 
in place. I will monitor that budget on a quarterly basis, and 
I will keep the Committee staff informed. If it appears that 
that budget is excessive, we will cut that budget back, Mr. 
Chairman.
    The number one responsibility I have to the American people 
is the stewardship of the tax dollars that we are given to 
spend, and we try to do this wisely and effectively. An 
important part of our mission and the Board Members' missions, 
is to be advocates for safety. We can sometimes do that 
effectively through travel, but it needs to be travel that this 
Committee feels is important and feels is responsible.
    The Chairman. My recommendation is to put in place the same 
kind of procedures that the FCC and other agencies use. That 
would probably be a good solution.
    Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    Mr. Hall, let me go again to the maritime accident we had 
near Coos Bay in my home State.
    Now, most of the oil leaked into our waters and into our 
beaches after the initial accident, and this all took place at 
a time when the Coast Guard was supervising everything.
    On the 22nd day, a salvage tug managed to tow the bow 
section of the boat off the beach. As the tug was towing the 
420-foot bow out to sea, the tow line broke. The New Carissa's 
bow again ran aground and leaked more oil, causing a second 
marine accident 60 miles to the north, near the town of Walport 
in my home State.
    Now, the Coast Guard maintains that the operational control 
of the response to marine casualty and the control of the 
investigation should not be divided. It is their view that they 
have extensive involvement and response, yet I can tell you we 
are certainly very upset that in our home State the most 
significant oil pollution from the New Carissa occurred after 
the initial accident, during the response to the marine 
casualty. How can the public be assured of an independent 
investigation of the actions of the Coast Guard during these 
response activities?
    Mr. Hall. At present, Senator, they cannot. If I could just 
refer briefly to the New Carissa. We did not launch on that 
accident because the Coast Guard did not notify us of that 
accident. By the time we learned of it, which was through the 
television, the Coast Guard had made a unilateral decision to 
lead the investigation. They did not discuss that or consult 
with us regarding their decision.
    Our safety mandate in regard to the other modal agencies, 
and to the limited extent that we do work in the marine area 
includes oversight, and we routinely evaluate the emergency 
response to accidents as part of our accident investigation. 
Only by permitting the Safety Board to conduct an independent 
investigation of accidents like the New Carissa, where the 
response is as important as the accident, can public confidence 
be assured in recommendations to prevent future occurrences.
    We have found many times in our history, Senator, that 
there can be an accident within an accident. There have been 
times in the rail area, where a pipeline accident and explosion 
occurred as a result of the actual rescue and clean up effort. 
The whole process is something that is reviewed routinely as 
part of our accident investigation effort.
    Senator Wyden. I will tell you, I am very troubled about 
why the Coast Guard would be unwilling to work with you along 
the lines that you have described, and I guess the question 
that comes to mind, has the Coast Guard experienced any 
problems in the past when they worked with you on operational 
responsibilities?
    I mean, there was the Exxon Valdez in 1989, the Julianne in 
1996, and it would be one thing if the Coast Guard had 
experienced some problems in working with you, but my 
understanding is that they have not. You all have not prevented 
them from issuing safety alerts, commencing regulatory changes. 
Has there been any reason why the Coast Guard would be 
reluctant to work with you on these matters?
    Mr. Hall. Senator, the only difference I can tell from the 
Coast Guard and the other modal administrations in the 
Department of Transportation is they wear a uniform. We have 
certainly worked together well in the past.
    Senator Wyden. Let me ask you just another couple of 
questions. I know Senator Hutchison wants to talk about matters 
important to her.
    I mentioned as well we are very troubled about the delay 
associated with getting information about this tragedy. 
Essentially, every time I am home at town hall meetings, folks 
want to know when we are going to hear from the Coast Guard, 
what is taking so long, what is behind the delay, and why can 
we not get information about the anchorage area used by the New 
Carissa and actions we ought to be taking to prevent future 
groundings.
    My question to you now would be, would giving NTSB priority 
position in a handful of these areas along the lines you are 
talking about produce faster results in cases like the New 
Carissa? As I say, we have been waiting for over 5 months. What 
is the typical timeframe that you all pursue, and how might we 
get information more quickly?
    Mr. Hall. Senator, we make a recommendation as soon in our 
investigative process as we feel a safety issue needs to be 
addressed. Most people would be aware of our actions in TWA 800 
and ValuJet where recommendations were made before we completed 
the investigations.
    Let me say that we are not seeking priority over the Coast 
Guard. We are seeking to eliminate the veto they have over our 
conducting the few investigations that we do. As you know, 
Senator, from your involvement in the King 56 C130 accident 
where, on behalf of the nine widows in your State, you asked us 
to get involved with the Air Force. The Air Force resisted our 
presence, but it opened up the investigation and we have now 
some unbiased recommendations that have come out of that.
    We have had the same experience in the Morning Dew, where 
Senator Hollings, Senator Warner, and other Members of Congress 
requested that we investigate an accident where the Coast Guard 
withheld information from the investigative authorities in the 
State of South Carolina.
    I explained to the Admiral when I called on him last year 
that I was going to make this request again this year. I think 
it is in the best interests, not of just the Safety Board and 
the Coast Guard, but most importantly, it is in the interests 
of the American people.
    Senator Wyden. It seems to me the bottom line, though, is 
that you will not wait for a final report before making 
recommendations if you feel the public safety requires it.
    We are concerned in Oregon we might have to wait for 2 
years for a final report from the Coast Guard, and my 
understanding is, if you felt the recommendations were 
warranted a few months into it, you would essentially notify 
the relevant agencies and the Congress that is the case, is 
that not correct?
    Mr. Hall. That is correct. One of the best examples is the 
Ecstasy accident in Fort Lauderdale. The minute we determined 
what had caused that fire we issued a recommendation to all of 
the cruise line companies. They took prompt action to address 
the problem that caused the fire on the Ecstasy.
    Senator Wyden. The other area it seems to me that would be 
important is you also look at the emergency response, as I 
understand it, not just the initial accident, which is very 
important for us in Oregon, because in the case of the New 
Carissa it was that emergency response that led to a second 
grounding when the tow line used to haul the bow of the New 
Carissa broke, so in effect you all would add another dimension 
under your proposal, as I understand it.
    Mr. Hall. That is correct. That is a routine part of our 
investigation. If there is an emergency response, it is 
evaluated. Many times, Senator, we see either additional 
environmental damage, as in the case of the New Carissa, or 
loss of life because of delayed or inappropriate response.
    Senator Wyden. Well, it seems to me that if we allow the 
status quo, in effect you will have the Coast Guard 
investigating themselves. The Coast Guard would in effect 
investigate the emergency response. That certainly raises 
important potential conflict of interest issues, and I think 
you all have made a very good case for your involvement in a 
handful of these areas.
    This tragedy in Oregon has very, very much troubled my 
constituents, but we are now almost as troubled by the fact 
that we cannot seem to get any decent answers from our 
Government as to what went wrong, so I want you to know that I 
am going to follow up very vigorously on your recommendations, 
because I think you can strengthen our ability to prevent these 
kinds of tragedies, and we do not want to see in the future, in 
the beautiful Pacific Northwest, these enormous vessels backed 
up against one of our treasures.
    So I thank you for your good work. As you noted, we have 
worked with you on a variety of issues in the transportation 
area, and we will be following up with you promptly on this 
matter.
    Thank you, Mr. Chairman.
    The Chairman. Senator Hutchison.
    Senator Hutchison. Thank you, Mr. Chairman. Just following 
up on Senator Wyden's line of questions and observations, Mr. 
Chairman, I would just say that I think this is an appropriate 
area for our Committee to address and have the Coast Guard as 
well as the NTSB come forward to talk about the issue of 
working together, or if there are conflicts I believe NTSB has 
been quite objective in its accident investigations where other 
agencies are part of the system, and the need for objectivity 
is the reason the NTSB was created.
    I do not know the Coast Guard's views, and I think it is 
important that we have those, and I would certainly say that I 
would be happy to have a hearing, perhaps with Senator Snowe, 
who is the Chairman of the Subcommittee with jurisdiction over 
the Coast Guard, or whatever the Chairman would consider to be 
the best approach. Would that be something we could explore?
    The Chairman. Absolutely.
    Senator Hutchison. Thank you, Mr. Chairman.
    I want to take another line of questioning as well. You 
have indicated NTSB is going to hold a hearing on safety 
ramifications of NAFTA later this year. I would like to know 
what the scope of that hearing is, because it is a very 
important issue for my State, and I am certainly concerned 
about the issue of trucks and safety coming in from Mexico, and 
I want to have the commerce eased, but I do not want unsafe 
trucks on our highways all over America, so could you tell us 
what your intentions are?
    Mr. Hall. Yes. I have been joined at the table now by Mr. 
Claude Harris, who is the Deputy Director of our Office of 
Highway Safety.
    Senator, I have had the privilege and honor of serving as 
chairman of this agency for 5 years and the highway area 
obviously disturbs me greatly because of the number of deaths. 
We kill more children on our highways and injure more children 
than any other particular one cause in our country.
    We have killed more young people under the age of 21 on our 
highways in the 1990s than we lost young men and women in the 
Vietnam War.
    The goods that were once on a warehouse floor are now daily 
moving in interstate commerce through our nation on 18-wheel 
vehicles. The hearing on NAFTA is one of four that we are 
conducting. We have had one regarding oversight. We are going 
to have one on technology, and we are going to have one that 
will look at driver's issues. We are also going to have the 
final one that will address the NAFTA issues, particularly what 
is being done to coordinate safety concerns between Mexico, the 
United States, and Canada. I did go to Brussels, Belgium, to 
visit the European Union, and I must admit to you I was a 
little concerned that the Union, where they have trucks that 
operate from Iraq all the way up to the ports in Rotterdam--
they have the same concerns that we have here with the number 
of nations, except they have many more nations--that we have 
not gone over there to look at what they have done in Europe to 
coordinate between nations.
    So we are going to try and focus that hearing in a 
constructive fashion to see what can we do to set some safety 
goals between our countries, between Mexico, the U.S., and 
Canada, and to ensure that we can have a free flow of commerce 
that everybody thinks is so important.
    So any input or thoughts that you or your staff have into 
how we should construct that hearing, which will be held later 
this year, we would welcome.
    Senator Hutchison. I appreciate very much the scope. Have 
you set the date?
    Mr. Hall. No, ma'am, we have not.
    Senator Hutchison. Well, we will work with you, and would 
like to be advised of the date; we might have some input.
    The administration has again proposed that the NTSB 
undertake a fee system for services. What is your opinion of 
that?
    Mr. Hall. I have told the folks at OMB over and over again 
I think that is a big mistake. The investigative function is a 
small part. This function ought to be paid by the taxpayers, 
and it should not be dependent on industry fees for its 
support, and that is mainly because of my concern on 
independence. It goes to the same area with the Office of 
Pipeline Safety, which is essentially funded by the pipeline 
operation.
    Senator Hutchison. Let me just segue into the issue of the 
use of the party system. One of the reasons that you have been 
able to be somewhat efficient in your investigations is you 
have parties, and, by having all of the competing parties in an 
accident, I think the NTSB has been able to draw its 
conclusions independently.
    RAND, however, is saying you should rely less on the 
parties to the accident and do more of the coordination in the 
NTSB. How do you feel about that, or do you feel that the 
present system is sufficient and that your control is such that 
you will have the credibility and the independence?
    Mr. Hall. I think the system--and you are as familiar with 
it as I am--has worked very well in the past.
    The amount, of course, has changed now. The main impact on 
the party system has been the litigious society we all live in 
and the 24-hour TV cameras everywhere. We had concerns 
expressed on both sides.
    The industry feels we should eliminate probable cause, and 
that they should have more involvement in the analysis portion 
of our investigation. The family members feel like they ought 
to have a seat at the table, along with the other parties to an 
investigation. I thought the responsible thing to do was to get 
an outside group to come in and hear everyone out and give us 
an independent view on it.
    The RAND Corporation, which seems to be an outstanding 
corporation, although they cannot seem to deliver a report on 
time--I was supposed to have the report last spring, and I am 
still waiting on it. Every time I call they give us a new 
excuse.
    I want to see what they finally say, and then we are going 
to look at that with our managers in a management retreat and 
try to get their input. If there are recommendations or changes 
we think ought to be made in the party system, we will come 
back to the committees and the committee staffs and get 
opinions before we would make any proposals.
    Senator Hutchison. Is it still the case that evidence that 
comes out of NTSB hearings on accidents is not admissible in 
court?
    Mr. Hall. Yes, ma'am.
    Senator Hutchison. Does that work?
    Mr. Hall. Dan Campbell, who I just promoted to the Deputy 
Managing Director--he is going to be our Acting Managing 
Director, because Peter is leaving us--could comment on that, 
because he has most recently served the Board for what, 10, 20 
years as our general counsel.
    Mr. Campbell. Senator Hutchison, as I am sure you are 
aware, because you are somewhat sophisticated in this, there 
are two divisions in NTSB evidence, the factual portion and the 
analytical portion. The analytical portion is not admissible in 
a court of evidence now, and there has not been any significant 
development in that area since you were on the Board.
    Senator Hutchison. But the factual portion is?
    Mr. Campbell. The factual evidence is. They still depose 
our investigators at length, and it is actually an obligation 
of the NTSB to preserve the evidence and make available its 
factual observations so that outside liability investigations 
can go forward.
    Senator Hutchison. Do you find more of your investigators' 
time taken with depositions and legal obligations?
    Mr. Campbell. I think I would say yes. I think there is 
more litigation throughout society that has spilled over into 
the way that they approach us.
    Senator Hutchison. Is that a hardship?
    Mr. Hall. That is a hardship, because many times we will 
end up with someone that is key to one of our major 
investigations being tied up at a crucial time with another 
matter they have worked on.
    Senator Hutchison. Regarding the June 2 Little Rock 
American Airlines crash landing in the thunderstorm, do you 
have any initial findings on that regarding either weather 
conditions or pilot, especially pilot fatigue?
    Mr. Hall. As you know, this is an ongoing investigation, 
and I would defer to Dr. Loeb to comment.
    Dr. Loeb. Unfortunately, I am probably not going to add a 
whole lot more to it than what the Chairman just said, because 
it is an ongoing investigation. We are clearly looking at all 
aspects of the weather dissemination, what the crew knew, the 
air traffic controllers, what they provided in the way of 
weather information, what information they had in terms of the 
radars that were available. We are also looking at the crew 
involvement, including the role that fatigue may have played, 
procedures, training, all of those things. At this point it is 
way too early.
    Senator Hutchison. OK. A last question--and I will be 
interested when you have any preliminary findings, and 
particularly, I know you always come out with an early 
recommendation if you feel that it is needed, and if pilot 
fatigue is one of the issues I would hope you would make a 
recommendation early, because that, of course, would affect so 
many other procedures.
    A last question is the priorities on your budget request. I 
think we have been able to flush out some of the needs that you 
have, but if you had to say, OK, you are sitting on our side of 
the dais, and we have to have priorities, what are your biggest 
concerns, and where would you place your priorities?
    Mr. Hall. As I expressed to you privately before the 
meeting started, I understand this is a large increase. I have 
had the honor, as I mentioned, to be the Chairman for 5 years.
    I would like to believe, when this administration ends and 
I was to leave this Board, that I had done everything I could 
to be sure this Board was ready to serve the American people 
well in the 21st Century. That is what that budget request 
reflects.
    Of course, it is difficult for me to place priorities with 
my five modal administrators sitting here in the audience. But 
to be honest with you, I think what we need is people and 
technology. Those are the two things that we need, and whatever 
we can get in additional assistance we will try to evaluate 
exactly what our responsibilities are, and try to apply those.
    Senator Hutchison. Well, I understand that you are in a 
political position right now, but we really do need to have 
those priorities, especially if there are areas where you do 
not feel your competence level is what it needs to be, and 
obviously aviation has been a major focus of the agency, but I 
know that rail and surface are where the numbers are, so I do 
want to have your priorities when we are meeting with the 
Appropriations Committee and trying to get to the bottom line.
    Thank you very much, and Mr. Chairman, thank you.
    The Chairman. Thank you.
    Chairman Hall, do you or other members want to make any 
final comments?
    Mr. Hall. Mr. Chairman, other than we appreciate very much 
the opportunity to do these jobs, and those of us like Peter 
and I that are political appointees, it is a distinction and an 
honor for us to lead the career public servants, who I believe 
are some of the most dedicated and hardworking people in the 
Federal Government.
    I would like to note the excellent working relationship, 
and the very important role that the Committee staff plays in 
interfacing with us. In terms of our work and activities, I 
think I consider all of them safety advocates as well as those 
of us who work at the Board.
    We look forward to continuing to follow you on C-SPAN, 
Senator, and wish you very well in the future.
    The Chairman. Thank you very much. We may have to convene a 
meeting up in New Hampshire soon.
     [Laughter.]
    I want to sincerely thank the people that work for you, who 
many times are unrecognized on C-SPAN or the national news at a 
time of national tragedies, but who do the day-to-day work 
which has made the NTSB an institution that is widely 
respected, well-regarded and, when there is a national tragedy, 
you are looked to by the American people.
    I think that there is enormous credibility which you have 
earned, and also enormous confidence, which you have also 
earned, and I congratulate you for the fine job you are doing. 
We look forward to your reauthorization to be completed 
basically without controversy, and I thank you for the great 
job that all of you are doing.
    Mr. Hall. Thank you, Mr. Chairman.
    The Chairman. For the record, it will be noted that we 
passed out our Committee budget.
    [Whereupon, at 11 a.m., the Committee adjourned.]
                            A P P E N D I X

                                ------                                


     Responses to Written Questions Submitted by Hon. Slade Gorton 
                         to Hon. James E. Hall

    Question 1. The current accident investigation process assumes that 
the parties and the National Transportation Safety Board are in a 
somewhat adversarial role. This is primarily due to the statutory 
requirement that the Board determine ``probable cause'' of accidents. 
In fact, it is more accurate to assume that all parties have a common 
interest in preventing loss, that is, a common safety goal. Pilots, 
manufacturers and operators certainly share this goal.
    Establishing fault should be more clearly, and properly, left to 
the courts to determine. If the Safety Board's role were refocused to 
be one of determining the facts and recommending opportunities to 
improve safety, rather than implying that the Board is ``determining 
fault,'' wouldn't this partitioning of roles enhance the NTSB's ability 
to remain focused on fact finding and safety improvement 
recommendations?
    Answer. It is important to discern the difference between probable 
cause and fault. The Board's determination of probable cause is never 
intended to be equated with the finding of fault. We agree that the 
finding of fault is best left to the courts.
    The Safety Board is aware of the concerns about the role of the 
``probable cause'' requirement in our statute. We asked the RAND 
Corporation to review the importance and role of the probable cause 
determination in our investigative and report writing processes. 
Accordingly, they have interviewed a wide variety of Safety Board 
``stake holders.'' We anticipate that their final report will include 
recommendations in this area.
    Question 2. The NTSB develops and completes analysis and prepares a 
draft final report without involvement of the parties. The draft report 
is submitted to the Board at a ``sunshine'' meeting and the results are 
available to the public and the parties after this process. I 
understand ICAO allows for the parties to review the draft report 
before it is final. This approach allows the parties to submit 
productive comments and develops broader acceptance of the findings by 
allowing peer review of the analysis by the ``best available'' experts. 
Every country operating under ICAO rules follows this procedure except 
the United States. Could you please explain how the NTSB process 
accomplishes this validation of their analysis?
    Answer. While it is correct to say that ICAO allows the sharing of 
analytical work with parties to an investigation, it does not require 
it--the requirement being limited only to a sharing of analytical work 
between participating States. Individual States working under ICAO vary 
in their approach to the solicitation of comments from interested 
parties.
    Some States provide for such a review, in several instances under 
national law that requires an opportunity for such comment by all 
interested persons, which would include injured parties, plaintiffs, 
insurers and such. These kinds of rules often proceed from the 
assumption that the work of the accident board may determine rights and 
liabilities of affected persons. The United States model attempts to 
avoid this type of partisan interplay, and seeks to the degree possible 
to guarantee an independent safety appraisal which can stand apart from 
the liability-related determinations made in other forums.
    The Safety Board does provide an opportunity for parties to our 
investigations to participate in a technical review of the factual 
information, and to submit their analytical interpretations on the 
agreed-upon set of factual circumstances. Those party submissions are 
then reviewed by the Board. In keeping with the Board's mission to 
provide an independent safety appraisal, we do not solicit comments 
from the parties on NTSB analysis.
    Question 3. Regarding the issue of training, we have seen 
presentations on aviation safety discussing the complex interactions 
between the airplane, airline operations, and the aviation 
infrastructure on both technical and human levels. Is a portion of this 
additional training aimed at increasing the NTSB's ability to 
participate in the evolving aviation system or is this solely technical 
training?
    Answer. The Safety Board anticipates that the advances in 
technology that it has witnessed in aviation will continue to increase. 
Further, it is likely that this increase will have a direct impact on 
not only the technology, but on the interrelationship of that 
technology with the pilots, air traffic controllers, maintenance 
technicians, dispatchers, flight attendants who are involved in the 
day-to-day operations in the national airspace system. Moreover, it 
will impact first level and senior level managers within the aviation 
system.
    The NTSB has committed to increase its resources dedicated to 
training to assure that our investigators understand the technical 
advances that have been and will be implemented in all facets of 
aviation operations. Examples of necessary training include the need to 
send investigators to study the operations of airframe designers and 
manufacturers, as well as engine and component designers and 
manufacturers, both domestically and overseas. Moreover, the explosive 
growth of digital computer-driven components and computer software 
programs involved in aircraft systems operation dictates the need for 
enhanced training in these areas for NTSB investigators, as well as the 
need to acquire and learn new hardware and software as investigation 
tools.
    Only through this commitment of resources to training can the NTSB 
retain its capabilities to investigate aviation accidents adequately in 
the near and long term, with the purpose of preventing future 
accidents.
    Question 4. The greatest risk for an aviation accident is overseas 
in countries that don't meet the existing ICAO standards because they 
have not invested in their aviation system. Since American business 
travelers and tourists can be found in every city around the globe, it 
seems that the NTSB needs to broaden its scope if it is going to 
continue to protect the interests of the U.S. traveling public. What 
U.S. government action is needed to encourage other governments to work 
with the NTSB regarding accident investigation and coaching of their 
investigators?
    Answer. The NTSB is closely monitoring the rapid growth of 
international civil aviation, including the potential for injury and 
death for U.S. citizens traveling abroad and on foreign airliners to 
and from the United States. The FAA has programs to ensure that foreign 
governments are upgrading their aviation safety infrastructure to 
comply with international standards set by the International Civil 
Aviation Organization (ICAO). The NTSB is currently evaluating the 
efficacy of these programs as a part of its investigation of the Korean 
Air Flight 801 accident in Guam.
    The NTSB makes significant efforts to help foreign countries meet 
their ICAO accident investigation responsibilities by conducting 
periodic formal classroom and workshop training for overseas 
investigators. For example, 10 foreign investigators from 6 countries 
attended an NTSB investigation school in December 1998 and 10 foreign 
investigators from 8 countries attended the school in June 1999. 
Further, NTSB investigators conducted accident investigation workshops 
in Taiwan and Singapore in early 1999 at which investigators from many 
Asia/Pacific nations attended. The NTSB has been working closely with 
ICAO at regional accident/incident investigation and accident 
prevention seminars for improved training of overseas investigators. In 
addition, in September 1999, the NTSB lead the U.S. delegation to the 
two-week meeting at ICAO at which a significant percentage of the 
world's aviation accident investigation authorities will develop up-to-
date standards for accident and incident investigation and accident 
prevention.
    Question 5. During the course of an investigation, there comes a 
point when the Safety Board has to determine if they've collected the 
information needed to carry out their charter or if they need to 
continue with the costly investigations. The subject of user fees has 
been popular this year and I am concerned this subject may be carried 
over to the Safety Board's reauthorization. In the past there has been 
discussion of requiring the parties involved in the investigation to 
fund some of the investigation. This troubles me because I am concerned 
that this would create a perception about the independence of the 
Safety Board. Could you comment on this and share your views with the 
Committee?
    Answer. As Chairman of the Safety Board, I do not believe that the 
American taxpayer would be well served by a transportation safety 
oversight function that was dependent on the collection of user fees. 
Although the transportation industry does benefit from our 
investigations, recommendations, and other safety programs, the 
ultimate beneficiary is the traveling, taxpaying public.

Responses to Written Questions Submitted by Hon. Ernest F. Hollings to 
                           Hon. James E. Hall

                                general
    Question 1. The majority of the increases in staffing and funding 
are slated to address aviation concerns, while the rate of accidents is 
decreasing in the commercial aviation industry. How can you justify 
this increase in light of all of the other increasingly technical and 
complex issues facing the other modes--highway, pipeline, rail and 
maritime?
    Answer. The Board's Congressional mandate for aviation differs from 
that in other modes of transportation. As you are aware, the Board by 
law must determine the probable cause of every civil aviation accident. 
Although requested increases for aviation staff and funding are higher 
than the request for other modes of transportation, the percentage 
increase is fairly equal across the modes, with pipeline and hazardous 
materials having the highest percentage increase.
                    coast guard question/morning dew
    Question 2. As you know, on April 2 of last year I asked the NTSB 
to investigate the December 29, 1997 sinking of the sailboat, Morning 
Dew, in Charleston Harbor, South Carolina. This tragic accident 
resulted in the deaths of all four occupants, three of them young 
children. As a result, the NTSB team began interviewing witnesses in 
May 1998 and in January 1999 held public hearings on the accident in 
Charleston. I understand that the NTSB report will address the Coast 
Guard's capability to respond to search and rescue calls including the 
Morning Dew accident, among others. It is now July 1999--and your final 
report has not yet been issued.

    --What is the status of the report?
    Answer. The Board is tentatively scheduled to complete action on 
this accident in a Board meeting on October 5, 1999.

    --What have your investigators found thus far about the adequacy of 
the Coast Guard's emergency response, and how we can ensure that this 
never happens again, anywhere?
    Answer. The issues in this investigation include Coast Guard watch 
staffing, policy and procedures for watchstanding, watchstander 
training, release of accident investigation information, and policy and 
procedures for responding to vessel distress calls. Our investigators 
are exploring apparent deficiencies in these areas, and it is 
anticipated that the recommendations contained in the final report will 
address these issues to help prevent a recurrence of this tragic 
accident.

    --When can we expect to hear NTSB's final word on what factors 
caused or contributed to this tragedy?
    Answer. The Board is tentatively scheduled to complete action on 
this matter in a Board meeting to be held October 5, 1999.
                 maritime--coast guard/ntsb jurisdiction
    Question 3. In your testimony you request a twelve-mile extension 
of NTSB jurisdiction from the coast. Would it be preferable to have 
concurrent jurisdiction with the Coast Guard (per the Coast Guard 
Authorization Act of 1992) on all vessels carrying U.S. passengers that 
embark and disembark in U.S. ports?
    Answer. In its reauthorization proposals for 1990, the Safety Board 
proposed that the United States assert off-shore jurisdiction for 
accident investigation over cruise lines that use our ports as 
principal points of departure and return. The Coast Guard argued 
against what it termed unilateral action, preferring the processes 
established through the International Maritime Organization (IMO). 
Congress ultimately enacted a provision giving the Coast Guard 
authority to act on behalf of the United States outside of U.S. 
territorial waters, if it were determined that the IMO approach could 
not guarantee an adequate investigation in a particular case. The NTSB 
was not given any statutory right to participate in this process, and, 
to the extent we have been able to participate, we do so only with 
Coast Guard permission. This is entirely unsatisfactory from our point 
of view.
    Any proposal that provides a more direct and independent role for 
the Safety Board would be welcome. However, these matters should not be 
viewed as an alternate to twelve-mile jurisdiction. The twelve-mile 
limit speaks to the entirety of NTSB's already existing jurisdiction. 
NTSB has always had major marine accident jurisdiction to the extent of 
the territorial waters of the United States. Our current proposal only 
seeks to make clear that, with the recent proclamation by the President 
of an assertion of territorial authority to twelve miles, that Congress 
intends NTSB authorities to move to that limit as well. Such a 
clarification would still leave open the issue of jurisdiction with 
respect to cruise vessels when beyond that limit. NTSB has long 
believed that ships using our ports as their commercial home, and our 
people as their customer base, cannot reasonably object to U.S., and 
particularly NTSB, investigation of accidents and mishaps which 
threaten the safety of passengers who are, predominantly, American 
citizens.
                                aviation
    Question 4. The FY 2000 Transportation Appropriations bill denies 
your request to collect $10 million in user fees, asserting that it 
could undermine industry confidence in the independence of the Board. 
What is your reaction to that claim, and how would you use such fees, 
if authorized?
    Answer. The Office of Management and Budget foresees a fee for 
service that will offset, on an annual basis, the costs of Safety Board 
investigative activities. As you are aware, the Board currently does 
not have the authority to collect user fees, and I personally do not 
believe that the American taxpayer would be well served by a 
transportation safety oversight function that was dependent on the 
collection of user fees. Although the transportation industry does 
benefit from our investigations, recommendations, and other safety 
programs, the ultimate beneficiary is the traveling, taxpaying public.
    Question 5. You have contracted with the RAND Institute to look at 
the needs of the NTSB. They apparently are focusing on the aviation 
functions--training needs, staffing, and the party process. We also 
know that given the growth of aviation, and without a reduction in 
accident rates, projections indicate that we may have one major 
aviation accident per week. This will place enormous pressure on you 
and Congress, and the industry, to make improvements. Recommendations 
will need to be made quickly. When do you anticipate that a final 
report will be available so that we can take a look at the 
recommendations and how they may benefit the NTSB?
    Answer. The RAND Corporation anticipates submitting the report and 
recommendations at the end of September.
                                  rail
    Question 6. There have been some concerns about maintaining the 
integrity of accident scenes prior to the arrival of the NTSB Go Teams. 
Can you comment on efforts to secure accident scenes, especially at 
railroad accidents?
    Answer. There have been several instances that the integrity of a 
railroad accident scene has been compromised prior to the arrival of an 
NTSB Go Team. For example, in the December 1998, derailment of an 
Amtrak passenger train on Union Pacific track in Arlington, Texas, the 
carrier began wreckage clearing operations and removed portions of the 
track structure in the area of the derailment prior to our team's 
arrival.
    The Board's Office of Railroad Safety typically advises the carrier 
that we will be investigating the accident as soon as a decision to 
launch a major team has been made. At that time, the carrier is advised 
not to disturb the wreckage unless it is necessary to address issues of 
safety. Timely accident notification to the NTSB is necessary for this 
policy to be effective.
                                highway
    Question 7. In your testimony you refer to the Federal Highway 
Administration's review process for motorcoaches and two accidents that 
the Board has investigated. You state that if the Federal Highway 
Administration had a more restrictive compliance review process in 
place that these accidents and others may not have occurred.
    As you know, the DOT is making highway safety a number one priority 
this year and there are many proposals to change the way the Office of 
Motor Carriers is organized. Could you please comment on how they might 
implement a more restrictive compliance review process?
    Answer. The Safety Board recently adopted a special investigation 
of selective motorcoach issues, which discussed the accidents that 
occurred October 13, 1995, near Indianapolis, Indiana, and July 29, 
1997, at Stony Creek, Virginia. As a result of that special 
investigation, the Board determined that although the FHWA has 
established a performance-based system of evaluating the safety fitness 
of motor carriers, it is important to give more weight to the driver 
and vehicle factors in passenger carrier compliance reviews. 
Deficiencies in these factors have been shown to be directly related to 
accident causation. The carriers involved in the above accidents 
received above average attention from the OMC and the States of Indiana 
and Michigan. Yet the OMC's rating methodology enabled these carriers, 
who had repeatedly received conditional or unsatisfactory ratings in 
either the vehicle or driver factor of the compliance review, to 
operate, potentially placing school children and other passengers at 
risk. The Indiana carrier had received conditional and unsatisfactory 
ratings for 3 years, yet still was allowed to operate.
    Because motorcoaches carry passengers for pay, the public 
rightfully expects the vehicles to be safe. Accidents investigated by 
the Board demonstrate that greater Federal oversight of passenger 
carrier operations is needed. The Safety Board, therefore, believes 
that the safety fitness rating system should be revised to give more 
weight to the vehicle and driver factors in passenger carrier 
compliance reviews.
    Question 8. Would you please furnish me with recommendations to 
tighten the Commercial Driver's License (CDL) program? In particular, I 
would be interested in any recommendations that would help eliminate 
the ability to mask CDL infractions.
    Answer. Uniformity in the CDL process between the States does not 
exist. Several States may have programs which mask convictions, and 
individuals who attend prescribed educational programs have their 
records cleared of traffic violations. Further, non-CDL convictions and 
accidents do not appear on the driver's record, and many local law 
enforcement officials do not have access to CDL data. In addition, the 
limited CDL data that is transferred from the States to the FHWA 
national database is not timely.
    We believe that the national CDL database should reflect all 
traffic convictions received for a CDL holder; States should adopt 
uniform criteria for serious traffic violations; all law enforcement 
officials should have access to CDL data; and the CDL information 
should be transferred to the national database in a timely manner.
    The Safety Board is planning to hold a public hearing to address 
concerns with the CDL process that have been raised in recent heavy 
truck and bus accident investigations some time in January 2000.
    Question 9. New trucking company entrants are only required to 
attest that they are familiar with Commercial Driver Safety 
Regulations. Would you support a requirement that required a Class I 
audit of new trucking entrants within a reasonable date certain to 
ensure that they have a program set up to comply with these safety 
regulations.
    Answer. We have made a number of safety recommendations regarding 
motor carrier safety fitness ratings. Although these recommendations do 
not specifically address new entrants, we have recommended that the 
Department of Transportation significantly improve the frequency and 
effectiveness of their compliance reviews.
                  hazardous materials in the u.s. mail
    Question 10. Following the ValuJet accident, you made several 
safety recommendations to the U.S. Postal Service. It is my 
understanding that the U.S. Postal Service has initiated several 
programs targeted at improving the safety of transporting hazardous 
materials via the U.S. mail. However the NTSB also expressed concern 
about the DOT hazardous materials inspectors lack of authority to 
inspect U.S. mail. Could you please elaborate on this issue?
    Answer. As a result of the accident investigation involving ValuJet 
Flight 592, several safety issues relating to hazardous materials 
shipments in the U.S. mail were uncovered. Those issues included:

    <bullet> The FAA inspectors, who have civil enforcement authority, 
are not permitted to open mail bags or packages in the U.S. mail that 
are placed on aircraft unless a postal inspector is present. Indeed, 
Public Law 101-615 (November 16, 1990) specifically excludes DOT from 
regulating hazardous materials in the U.S. mail.
    <bullet> If a package in the U.S. mail is found to be leaking 
hazardous materials, the FAA is unable to make an enforcement case.
    <bullet> When the U.S. Postal Service contracts with a carrier to 
ship hazardous materials, the Postal Service becomes a shipper.
    <bullet> The U.S. Postal Service has only criminal enforcement 
authority to address willful violations, and does not have civil 
enforcement authority.

    The Postal Service has initiated several programs aimed at 
education of its employees as well as the American public on the 
dangers of shipping hazardous materials. They have instituted various 
hazardous materials awareness training programs that are provided to 
employees nationwide. Additionally, they have issued hazardous 
materials handling instructions to all Postal Service airport mail 
facilities that tender mail for air transportation. The Postal Service 
has contracted with the Volpe Center to tailor hazardous materials 
training modules which address awareness, acceptance, handling and 
processing procedures, to fit current postal regulations. They expect 
over 2,000 employees who are assigned to handle hazardous materials at 
airports will be trained by the end of calendar year 1999. Finally, 
they have distributed informational awareness brochures on things that 
cannot be shipped via mail to over 39,000 post offices nationwide.
    It is our understanding that the Postal Service is seeking civil 
enforcement authority to regulate undeclared hazardous materials 
shipments identified in transportation.
                               __________

    Responses to Written Questions Submitted by Hon. John McCain to 
                           Hon. James E. Hall

                           general questions
    Question 1.  The Safety Board is seeking a significant hike (15 
percent) in funding and staff as part of its reauthorization request. 
Your testimony discusses the difficulties your current staff is having 
just meeting its existing responsibilities and you indicate that the 
RAND study which has yet to be released, will report on the severe 
strains on staff in fulfilling your existing statutory 
responsibilities. Yet, you are requesting statutory priority in marine 
investigations.
    (a) When the Congress increased NTSB staff by 20 in 1996, and added 
an additional 32 through the appropriations process after the ValuJet 
and TWA accidents, we were informed that the additional resources would 
ease overburdened investigators. Why didn't the 52 new positions you 
received in the past three years ease staff burdens or contribute to an 
increase in the timeliness of Safety Board accident investigations?
    Answer. The 52 positions have assisted in resolving our staff 
burden. Because of your support, we have been able to hire:

    1. A Family Affairs staff that has:

        <bullet> developed (along with the major airlines) family 
        assistance plans for use in the event of a major accident
        <bullet> launched on several major accidents in all modes of 
        transportation to ensure proper treatment of victims' families.

    2. Technical experts in the areas of:

        Aviation Safety

                <bullet> aircraft performance
                <bullet> aircraft structures
                <bullet> aircraft powerplants
                <bullet> air carrier operations
                <bullet> air traffic control
                <bullet> radar data
                <bullet> meteorology
                <bullet> human performance

        Research and Engineering

                <bullet> materials engineering
                <bullet> information management (web master)
                <bullet> medical
                <bullet> fire and explosions
                <bullet> mechanical engineering

        Railroad

                <bullet> mechanical engineering
                <bullet> railroad freight car systems, structures, and 
                performance
                <bullet> human performance

        Highway

                <bullet> motor carriers
                <bullet> forensics
                <bullet> human performance

        Marine

                <bullet> marine engineering
                <bullet> human performance

        Pipeline/Hazardous Materials

                <bullet> hazardous materials engineering
                <bullet> human performance

    The additional positions have provided the Board with the technical 
capability needed to analyze complex issues arising in recent accident 
investigations, including those involving USAir Flight 427 and TWA 
Flight 800. These investigations have led to Safety Board suggested 
modifications to Boeing aircraft, which we believe will increase safety 
for the flying public.
    (b) If 52 people didn't ease the burden, what assurance can you 
give the Committee that 70 more people will be the magic fix?
    Answer. Without knowing the actual growth in numbers or complexity 
of each mode of transportation during the next decade, it is not 
possible to provide the Committee with an assurance that 70 more people 
will be the ``magic fix'' for the Board. Available industry estimates 
indicate that accidents will increase and investigations will become 
more complex. At the Board's current staffing level, we will most 
likely not be able to provide, in a timely manner, the needed 
independent review for future investigations.
    (c) How many of the requested 70 new FTEs would be dedicated to 
marine priority investigations if your request is approved?
    Answer. The requested FTEs include eight marine investigators with 
expertise in the following specialty areas:

        <bullet> Marine--Foreign-flag Vessels
        <bullet> Marine--Fire Science
        <bullet> Marine--Structural Fire Protection
        <bullet> Marine--Search and Rescue

    These positions are necessary to establish the current marine 
program at a full performance level. ``Priority,'' whether received or 
not, will not appreciably affect the need to enhance our abilities. The 
NTSB does not anticipate a significant change in the numbers of major 
marine investigations as a result of its request to amend Section 1182. 
The purpose of those amendments is to avoid duplication and provide 
full independence in investigations that will, in most cases, be 
undertaken with or without new law.
    Question 2. In your written testimony, you discuss the March 1999 
completion of the Safety Board's investigation of USAir Flight 427. Has 
the four-month old report been printed yet, and if not, what has caused 
the delay in releasing the full report to the public?
    Answer. The Board adopted the report of the accident involving 
USAir Flight 427 on March 24, 1999. In an effort to speed the 
publication of major reports (both printed copies and those posted on 
the Internet), new computer technology is being tested for report 
publications. The first application of this technology was used on the 
report of USAir Flight 427. New procedures typically reveal 
implementation problems that slow the first application, and that was 
the experience with the USAir Flight 427 report. We believe, however, 
that the time invested in the process now will result in a more timely 
and less expensive product.
    The final report of the accident involving USAir Flight 427 was 
placed on the Board's web site on July 20, 1999. We expect to receive 
the printed report in September.
                          board member travel
    Question 1. As you know, there have been a number of press reports 
concerning Board Member travel particularly citing extensive 
international travel expenditures. In addition, I contacted the Board 
and obtained detailed information concerning Board travel during the 
past five years.
    (a) As Chairman of the Board, you have explicit control over the 
Safety Board's budget, including travel expenditures, is that correct?
    Answer. Yes, that is correct.
    (b) What procedures exist at the Board governing member travel, 
both domestic and international?
    Answer. Within budgetary guidelines, each Board Member has latitude 
in developing their own plan for promoting the mission of the Board. 
Their speeches and presentations to industry groups, educational 
entities, and others are an important aspect of the Board's ability to 
discuss important safety issues that have been developed as a result of 
our investigations.
    (c) What specific procedures, if any, regarding Board Member non-
accident related travel have you implemented during your 5 years as 
Chairman prior to the July 14th announcement? Did you attempt at any 
time prior to the July 14th announcement to implement Board Member 
travel guidelines?
    Answer. Prior to the July 14, 1999, implementation of travel 
guidelines, I implemented no new procedures regarding Board Member non-
accident travel.
    Question 2. While I have complete admiration for the work of the 
Safety Board and its staff for your critical work in promoting 
transportation safety worldwide, I have serious concerns over Board 
Member travel expenditures. Of the total budget for Board Member travel 
during the past five years, a mere 15 percent covered accident related 
travel, while 85 percent was spent on extensive non-accident related 
domestic and foreign travel--34 percent foreign travel and 51 percent 
domestic. I understand that the Safety Board even covered the expenses 
of a member to travel to universities to lecture and speak. I cannot 
understand how this is the best use of taxpayers' dollars. At the same 
time, your reauthorization submission is seeking substantial funding 
increases for staff and operations, including funding for staff travel. 
Perhaps shifting some of your travel priorities could lessen the need 
for increased funding authorizations.
    (a) How do you defend the members travel expenditures and do you 
have any plans to implement any other procedures to reign in excessive 
Board Member travel expenditures?
    Answer. Although it appears from the figures cited that Board 
Member travel expenses may be excessive, it is important to note that 
the non-accident travel taken by Board Members covers a variety of 
purposes that are essential to furthering the Board's transportation 
safety mandate. For example, Board Members travel to give speeches, 
participate in technical panels, and provide testimony at government 
and industry events, both domestically and internationally, that focus 
attention on transportation safety issues about which the Board has 
made recommendations for corrective action.
    As you know, the Safety Board has no regulatory authority to ensure 
implementation of its safety recommendations. It relies on its 
reputation for realistic and feasible safety recommendations grounded 
in accurate determinations of the causes of accidents, thoroughly 
developed safety studies and special investigations. The Board Members' 
advocacy efforts are critical to ``getting the message out'' to those 
individuals and groups, representing Federal, state, and local 
government agencies and the international transportation industry, who 
have a role in seeing that needed action is taken to improve safety 
throughout the transportation system.
    As you have indicated, the Safety Board ``covered the expenses of a 
member to travel to universities * * * to lecture and speak.'' Member 
Goglia has served as a lecturer at the University of Southern 
California's Aviation Safety Institute, which was founded in 1952. This 
is an example of the type of travel where the potential safety payback 
is likely to be many times the cost incurred. Approximately 900 
national and international aviation safety professionals attend the 
Institute's courses each year, including the safety staffs of most U.S. 
air carriers. Many of these individuals hold safety oversight positions 
created at airlines as a result of Safety Board recommendations.
    Mr. Goglia is an internationally recognized expert on aviation 
accident investigation processes, procedures, training, fact-finding, 
and techniques. Because of his unique knowledge, he was asked to serve 
as a lecturer at the Institute and has served in this position, without 
compensation, since 1997. Mr. Goglia lectures four times each year and 
has scheduled a majority of his lectures to coincide with other 
important Safety Board business in the southern California area.
    (b) As you probably know, other federal agencies follow procedures 
governing travel. What are your thoughts on implementing procedures 
similar to other agencies?
    Answer. The Board follows the procedures for travel established by 
the GSA Federal Travel Regulations and issues its own caveats to these 
regulations.
    Question 3. I understand that Vice Chairman Bob Francis has 
informed the President that he will not be seeking reappointment to the 
Safety Board. I also understand that the Vice Chairman is the Board 
Member on duty and is currently in Nevada to lead the NTSB's 
investigation of the accident that claimed the life of former NTSB 
member, FAA Administrator, Admiral Donald Engen.
    (a) Mr. Francis, I understand, may seek employment in the aviation 
field. Does the Safety Board have any procedures that require Members 
to recuse themselves from acting on matters where there could appear to 
be a conflict of interest? If not, should there be?
    Answer. Because the Office of Government Ethics has exclusive 
jurisdiction over these procedures, the Safety Board does not have any 
specific written procedures that require Members to recuse themselves 
from certain matters while seeking future employment.
    The Office of Government Ethics rules are set forth in the 
Standards of Ethical Conduct for Employees of the Executive Branch, 5 
CFR Part 2635. Subpart F specifically deals with seeking other 
employment, and it addresses the requirement of 18 U.S.C. 208(a) that 
requires an employee to disqualify himself from participation in any 
particular matter that will have a direct and predictable effect on the 
financial interests of a person ``with whom he is negotiating or has 
any arrangement concerning prospective employment.''
    On June 29, 1999, Vice Chairman Robert T. Francis notified the 
White House that he would not seek nomination to another term as a 
Member of the National Transportation Safety Board. That afternoon he 
contacted the Safety Board's designated ethics officer to discuss the 
procedures and advice given to those who are leaving the Safety Board. 
The ethics officer provided oral advice on the afternoon of June 29, 
1999, and written advice on July 1, 1999. According to the Vice 
Chairman, he is adhering to that advice and following the procedures 
contained in the document. While the Vice Chairman may seek employment 
in the aviation field or elsewhere that would begin after his term 
expires, there is no current need for recusal from any matter before 
the Safety Board. In addition, the Vice Chairman has stated he does not 
anticipate that it will become necessary to recuse himself from matters 
that may come before the Board before his term expires. The Vice 
Chairman has also stated that if such a situation does arise, he will, 
without hesitation, abide by the advice of the designated ethics 
officer, the procedures of the Safety Board, and the regulations of the 
Office of Government Ethics regarding recusal from particular matters, 
post-employment restrictions, and testimony in civil litigation.
    (b) Does the Safety Board have any procedures limiting Board-paid 
non-accident related travel when a Member has announced an intent to 
leave?
    Answer. No, the Safety Board does not have procedures limiting 
Board-paid non-accident related travel when a Member has announced an 
intent to leave, nor do I anticipate implementing such procedures. 
Until his departure, the Board Member continues to carry out the duties 
of Member. As mentioned above, however, Board Members routinely seek 
advice regarding appropriate procedures from the Board's ethics 
officer.
    Question 4. In your written testimony, you discuss the increasing 
Safety Board international aviation involvement. I strongly suspect 
that the Board Member travel could well be duplicative of FAA travels 
and authority over international aviation.
    (a) In order for the Committee to thoroughly assess the budget 
impact of the Board's increasing international involvement, please 
provide for the record a listing of all foreign staff travel, 
segregating the amount that is accident investigation related and that 
which is more aviation safety promotion. Please provide the information 
for 1996, 1997, 1998, and 1999.
    Answer. The Safety Board investigative staff traveled in support on 
the following aviation accident investigations:

 
------------------------------------------------------------------------
               Accident Site                      Airline/aircraft
------------------------------------------------------------------------
Ensenada, Mexico..........................  Cessna 550
Turin, Italy..............................  Alitalia/MD-80
Douale, Cameroon..........................  Cameroon Airlines/Boeing 737
Cali, Colombia............................  American Airlines/Boeing 757
Toulouse, France..........................  Euralair/Boeing 737
Asuncion, Paraguay........................  Lineas Aereas/DC-8
Puerta Plata, Dominican Republic..........  Birgen Air/Boeing 757
Arequipa, Peru............................  Faucet Peru/Boeing 737
Florida Straits, Cuba.....................  Brothers/Cessna 337
Dubrovnik, Croatia........................  USAF/Boeing 737 (CT-43A)
Fukuoka, Japan............................  Garuda/DC-10
Ouagadougou, Africa.......................  Air France/Boeing 747
------------------------------------------------------------------------
The travel costs to support these investigations was about $95,210.00.
  Travel costs for aviation safety promotion were $10,000.


 
------------------------------------------------------------------------
               Accident site                      Airline/aircraft
------------------------------------------------------------------------
Lima, Peru................................  AeroPeru/Boeing 757
Sao Paulo, Brazil.........................  TAM/Fokker FK-100
St. Johns, Antigua........................  American Airlines/Airbus A-
                                             300
Nagoya, Japan.............................  JAL/MD-11
Andros Island, Bahamas....................  Bell 407
Eel Ricer Cress...........................  Piper PA-31
Manta.....................................  Boeing 707
Moran.....................................  Bell 407
Santa Catarina, Mexico....................  Beech 23
Lofssjon..................................  Bell 205
Mariquita.................................  Bell UH-1
La Cardonera, Mexico......................  Rockwell Commander 112
Roque.....................................  Bell UH-1
Nejran, Saudi Arabia......................  Saudi Arabian/Boeing 737
------------------------------------------------------------------------
The travel costs to support these investigations was about $57,800.
  Travel costs for aviation safety promotion were $7,000.


 
------------------------------------------------------------------------
               Accident site                      Airline/aircraft
------------------------------------------------------------------------
Nuevo Berlin, Argentina...................  Austral Airlines DC-9
Neiva.....................................  Ayers S2R
Comox Lake, Colombia......................  Colombian Helicopters (Drug
                                             Enforcement Administration)
                                             Boeing 234
La Palma, Panama..........................  SAN UH-1H (DEA)
La Vertiente, Mexico......................  Gonzalo Vargas Campero SA226
                                             TC
New Brunswick, Canada.....................  Air Canada Bombardier CL-600
Palainbang, Indonesia.....................  Silkair Boeing 737-300
Tampico, Mexico...........................  Private Lear 24
London, United Kingdom....................  United Airlines Boeing 767-
                                             300ER
Islaof, Philippines.......................  Cebu Air DC-9
Taipai, Taiwan............................  Formosa Airlines Saab 340
Bogota, Colombia..........................  Tame Airlines (Air France)
                                             Boeing 727
Montreal, Canada..........................  Prop Air Swearingen METRO II
San Jose, Costa Rica......................  Dyncorp Aerospace Tech.
                                             Ayres S2R-T34
Lorient, France (Midair)..................  Protheus Airline/Private
                                             Beech 1900/C-177
Mellville, Dominica.......................  Air Anguilla Cessna 402
Nova Scotia, Canada.......................  Swiss Air MD-11
Shanghai, Peoples Republic of China.......  China Eastern MD-11
Mt. Cook, New Zealand.....................  Air Safaris Cessna 177
Guadalajara, Mexico.......................  Continental Airlines Boeing
                                             737-500
------------------------------------------------------------------------
The travel costs to support these investigations was about $130,000.
  Travel costs for aviation safety promotion were $34,000.


 
------------------------------------------------------------------------
               Accident Site                      Airline/aircraft
------------------------------------------------------------------------
Mozambique................................  Linhas Aereas/Boeing 747SP
Pointe a Pitre, French Indies.............  Miami Air/Boeing 727
Jumla, Nepal..............................  Necoo Air/Cessna 208
Madras, India.............................  Air France/Boeing 747
Adana, Turkey.............................  Turkish Airlines/Boeing 737
Redhill, UK...............................  Robinson R-22
Shanghai, China...........................  Korean Air/MD-11
Mas Mesitas...............................  Piper PA-31
Hong Kong.................................  China Airlines/MD-11
Taiwan....................................  UNI Airlines, MD-90
Argentina.................................  LAPA Airlines, Boeing 737-
                                             200
Tanzania..................................  Cessna 404
------------------------------------------------------------------------
The travel cost to support these investigations was about $226,600.
  However, the travel vouchers for the last four investigations have not
  been received, but are estimated to add from $150,000 to $175,000 to
  the 1999 foreign travel costs. Travel costs for aviation safety
  promotion were $37,000.

             ntsb's proposed statutory authority revisions
    Question 1. Your written testimony outlines the Board's requested 
nine changes in statutory authority. Does this outline reflect the 
Board's order of preference for these proposed statutory changes? If 
not, please indicate what provisions you consider most important to the 
Board for meeting its responsibilities.
    Answer. The order of presentation follows the ordinal arrangement 
of the statute and does not indicate a preference. Each request speaks 
to a specific problem area, some of which do not appear to be at all 
controversial. None are considered less than critical for the area they 
address.
    For example, new authority to treat surface and video recorders 
with appropriate confidentiality will be essential to establishing 
wide-spread use of this type of technology. Likewise, 12-mile 
jurisdiction in marine investigations appears to be without 
controversy, but could become crucial to our program, were an accident 
within that range to occur. The authority to enter into agreements with 
foreign safety authorities, again not controversial, is terribly 
important to our increasingly busy international investigative 
activity. The two provisions which would reaffirm our leadership role 
in transport accidents and establish a practical right of independent 
investigation for our marine program are fundamental to our ability to 
do the job assigned by Congress. And fair overtime pay for our 
personnel at the scene of an accident is a very pressing matter.
    Choosing between any of these requests would be most difficult, and 
it is not obvious to us why such a choice would be required.
    Question 2. In regard to the Board's request for several Federal 
civil service personnel exemptions, you indicated the changes are 
``consistent with provisions permitted to other transport agencies.''
    (a) Please discuss how each of the requested changes are consistent 
with those provided to other transport agencies, identifying which 
agencies already have been granted the specific statutory changes, how 
the changes have been implemented, and the impact on attracting 
qualified new hires.
    Answer. Below is information on each of the four requested 
administrative revisions.
     Overtime (accident investigation only). The Coast Guard pays a 
``true'' or actual 1\1/2\ times hourly pay for its ship safety 
inspectors. These individuals perform work at odd hours but do not face 
working conditions as arduous, hazardous or demanding as an accident 
investigator with NTSB. The Federal Aviation Administration (FAA), with 
which the Board's mission most closely relates, has been freed by 
Congress from virtually all constraints imposed by civil service law. 
Coast Guard has implemented its authority with regulations while the 
FAA is in the process of bargaining with its unions to implement the 
changes. The Board is asking for an exemption from negotiating both its 
overtime and pay provisions with the union. The payment of true 
overtime to accident investigators is an obvious recruiting retention 
tool.
    Special Excepted Service Hiring Authority (accident investigators 
only).  This requested authority is not employed in other agencies. 
However, all Federal attorney positions, except political appointments, 
are filled using the excepted service authority. We are seeking to 
speed up the currently cumbersome process. Most agencies hire new 
employees at an entry level or through processes internal to the 
Federal government. With regard to accident investigators, the Board 
seeks to hire mid-career, experienced and skilled professionals. The 
competitive civil service system was not constructed to accommodate 
such a need. We believe we can speed up our hiring by an average of 
three months with this authority and get as good or better new 
employees as in the old system. Currently, in the recruiting process, 
when we find a likely candidate we must steer them into the system. 
Frequently, by the time we are able to make a job offer they have 
secured other employment.
    Pay Setting Authority (accident investigators only). FAA has this 
authority for its entire work force based on 1996 legislation. The 
Board is seeking this authority for the sole purpose of assuring the 
ability to stay competitive with the FAA and private sector employers.
    No Penalty Retirement (accident investigators only). Since we hire 
most of our investigators in mid-career and from outside government, we 
tend to hire individuals who are about age 35. We found that at 55 
years of age, some of our investigators are no longer able to easily 
meet the arduous physical demands of the job. We believe it would both 
aid recruiting and provide equity with similar government jobs, i.e., 
law enforcement investigators, if our investigators could retire at 55 
with 20 years of service without a serious penalty. Retirement from law 
enforcement activities requires age 50 and 20 years of service to gain 
eligibility, a lower standard than we are requesting. This would not be 
a mandatory retirement, but merely an option.
    (b) Also, which transport agencies are you referring to and are the 
exemptions identical to those at other transport agencies?
    Answer. The transport agencies are primarily the FAA (all pay 
provisions) and the Coast Guard (overtime), although the Saint Lawrence 
Seaway and the Maritime Administration (at the Merchant Marine Academy) 
have considerable flexibility in pay setting and hiring practices. The 
flexibilities we are requesting are not identical to those at other 
agencies. We are seeking only those authorities that we believe will 
meet the Board's specific and unique needs.
    Question 3. The NTSB's reauthorization proposal includes a 
provision that would reaffirm the Board's priority over other federal 
departments and agencies during accident investigations. I understand 
that this provision arose out of problems encountered during the 
investigation of the TWA Flight 800 tragedy.
    (a) Could you provide us with a brief outline of the concerns that 
you feel the requested priority reaffirmation would address?
    Answer. The request to reaffirm NTSB authority in the event of 
parallel federal investigations arises out of several issues, perhaps 
the most important being an ambiguity introduced into the statute by 
the Family Assistance Act. The Act included a provision stating that 
its terms were effective in any aircraft ``accident'' regardless of its 
suspected cause. (The FBI has cited this provision in correspondence 
with the Senate as a basis to question the intentions of Congress with 
respect to NTSB jurisdiction at disaster scenes where criminal activity 
cannot be ruled out.)
    The investigations surrounding TWA 800 pointed out the immense 
difficulty of assuring full coordination in the context of an extremely 
high profile major disaster, where expectations for aggressive action 
by all agencies are great. However, because there appeared to be little 
doubt about the ultimate jurisdiction of NTSB to supervise the 
assemblage of wreckage, at least to the point of reliable evidence of 
an intentional criminal act, accommodations were reached that permitted 
all concerned to proceed. In order to assure that there is no setback 
in future investigations and that matters do not become even more 
controverted than they might have been in TWA Flight 800, NTSB has 
requested that Congress reaffirm its continued desire for NTSB to 
perform its functions in all major transportation disasters, consistent 
with its decades-long practice. NTSB feels certain that Congress did 
not intend, through enactment of the Family Assistance Act, to change 
this arrangement.
    (b) Would this language in anyway increase the burden that the NTSB 
must shoulder during an investigation that might have criminal 
implications?
    Answer. No. NTSB has traditionally accommodated its practices to 
the legitimate demands of criminal investigators, consistent with our 
concern for the preservation of evidence in a fashion suitable to all 
involved. The NTSB has an undisputed track record for ceding leadership 
to criminal investigators in cases where intentional acts of 
destruction are reasonably indicated. These matters would not change.
    (c) How would the TWA Flight 800 investigation have been different 
if this provision had already been enacted into law?
    Answer. NTSB's request is not focused on the changes that might 
have occurred within the context of TWA Flight 800, but on assuring 
that there is no erosion of our ability to perform our responsibilities 
should another such accident occur. NTSB is vastly out staffed in terms 
of assets and personnel by other departments of government. In the 
absence of clear statutory authority, our negotiating position is 
decidedly poor.
    (d) If the NTSB has priority during the investigation of an 
incident, does that mean that law enforcement investigations cannot 
take place unless the NTSB has analyzed the scene first?
    Answer. No. It cannot be said often enough that NTSB has long 
experience with coordinating and cooperating with criminal 
investigators, and that the possibility of disturbing evidence of a 
crime is something we always take into account and are willing to take 
any necessary steps to avoid. Such accommodations were made for TWA 
Flight 800, and in a host of recent accidents in all modes of 
transportation.
    (c) What is the risk that NTSB investigators, who may not have 
training in criminal investigation practices, may inadvertently 
contaminate or compromise evidence in a situation where a crime may 
have occurred?
    Answer. There is little risk that our investigators would 
contaminate a crime scene. As a practical matter, we are not the first 
agency on scene, so scene security will not be primarily an NTSB 
function. Immediate coordination with all affected agencies is a 
hallmark of our operating procedures, and this permits every necessary 
opportunity to structure investigative tasks to accommodate all 
legitimate necessities of criminal investigation.
            request for priority over marine investigations
    Question 1. The Board is currently seeking priority in 
investigations of all marine accidents. Currently, such investigations 
are conducted by either the Coast Guard or the NTSB, depending on the 
circumstances as laid out in a memorandum of understanding (MOU) 
between the two agencies.
    (a) Please explain what procedures are currently followed when a 
marine accident occurs and the NTSB wishes to be the lead investigative 
party?
    Answer. Upon accident notification, discussions commence between 
NTSB and Coast Guard (USCG) headquarters in Washington, DC. When 
notified of a major marine accident by the Coast Guard, a Safety Board 
senior marine staff manager notifies the USCG of our intentions. If the 
NTSB decides to launch a major team from headquarters, we would prefer 
to conduct the investigation under NTSB rules. However, the joint 
regulations require both agencies to agree. The USCG then decides 
whether to agree or not and notifies the Board. If the Board believes 
the issues may involve USCG responsibilities or safety issues with 
national impact, negotiations will commence. In the meantime, given the 
Board's intention to investigate we launch a team to the site. 
Negotiations, either verbal or written, will continue throughout the 
launch, and up to and including arrival of the team on scene.
    (b) Have the current procedures resulted in impediments to marine 
safety investigations and if so, please explain how?
    Answer. The current procedures have impeded NTSB investigations 
and, therefore, marine safety. If the Coast Guard elects to conduct its 
own investigation, it may refuse to participate in the NTSB 
investigation. While conducting its investigation, witnesses have been 
made unavailable to NTSB, access to evidence has been refused, and 
local law enforcement and other officials are confused as to who is in 
charge. Compounding these impediments, in many accidents, the Coast 
Guard investigates the application and enforcement of its own 
regulations and its own personnel. All of this results in delaying 
safety recommendations that could prevent future accidents, and an 
erosion in public confidence in marine safety.
    (c) Have there been discussions between the NTSB and Coast Guard 
regarding the Board's primacy proposal? If not, please explain why and 
if so, please highlight those discussions and the status of any pending 
agreement.
    Answer. Chairman Jim Hall visited Admiral Loy, the Coast Guard 
Commandant, in October 1998 to discuss issues of mutual interest 
including the Chairman's intent to pursue full independence. 
Independence of action, rather than primacy, is the real issue at 
stake. Even under new law, the NTSB will only investigate a handful of 
the most significant marine accidents. Admiral Loy indicated at that 
time that he would continue, as had his predecessors, to oppose this 
change. No proposals or agreements are being discussed with the Coast 
Guard at this time.
    (d) Apart from your views of primacy for all major marine cases, 
what other issues in the MOU or joint regulations need to be addressed?
    Answer. More than 70 percent of our accident investigations include 
foreign flag vessels, yet NTSB has no official voice internationally on 
how these accident investigations will be conducted under international 
rules. In aviation, NTSB has official representation at the 
International Civil Aviation Organization (ICAO) with regard to 
accident investigation issues. In marine, USCG and the International 
Council of Cruise Lines have representation at International Maritime 
Organization (IMO); NTSB does not. Other issues, such as accident 
notification and accident site security, may also benefit from further 
discussion, but they are in the realm of fine tuning rather than policy 
change.
    Question 2. Please briefly describe the background, experience, and 
location of the marine investigative personnel at the NTSB.
    Answer. All NTSB marine investigative personnel are located at our 
Washington, DC headquarters. Individual information follows:

    Senior investigator: BE State University of New York Maritime 
College; licensed marine engineer; 25 years experience in marine 
industry, including seagoing experience and investigative experience 
with U.S. Navy (MSC), U.S. Coast Guard and NTSB.
    Senior investigator: BS USCG Academy; MS M.I.T. in Naval 
Architecture, MS M.I.T. in Mechanical Engineering; MBA NYIT; 22 years 
USCG (Commander retired), 5 years investigative experience at NTSB.
    Senior investigator: BS in Marine Transportation State University 
of New York Maritime College; Licensed Mate; 19 years investigative 
experience at NTSB.
    Senior investigator: BS, USCG Academy; MA Webster University in 
Human Relations; 23 years Coast Guard experience; 14 years 
investigative experience at NTSB.
    Senior investigator: BS, US Merchant Marine Academy in Marine 
Transportation; 20 years US Navy experience; 2 years sea service cargo 
and tank ships; 18 years investigative experience at NTSB.
    Senior investigator: BS, Massachusetts Maritime Academy in Marine 
Transportation; MBA, Suffolk University; Licensed Inland Master, any 
gross tons, licensed ocean Master, 1,600 gross tons; 9 years sea 
service; 10 years investigative experience with NTSB.
    Senior investigator: BS in Naval Architecture and Marine 
Engineering; MSE, University of Michigan in Naval Architecture and 
Marine Engineering; 9 years marine industry experience; 4 years at USCG 
in safety regulations development; 8 years investigative experience at 
NTSB.
    Marine investigator: BS in Oceanography and Meteorology, State 
University of New York Maritime College; Master Oceans, any gross tons, 
First Class Pilot, any gross tons; 24 years sea experience; 27 years US 
Navy Reserve; 3 years investigative experience at NTSB.
    Marine investigator: BS, US Merchant Marine Academy in Marine 
Engineering; JD, George Mason University Law School; Licensed Master, 
12 years sea experience.
    Marine investigator: BS in Marine Engineering; Licensed Chief 
Engineer, Steam & Motor, USCG; 10 years sea experience.
    Marine investigator: BS, SUNY Maritime College in Marine 
Transportation; Licensed Master Mariner; 10 years sea experience; 2 
years MSC environmental policy experience; 1 year NTSB investigative 
experience.
    Senior human performance investigator: BS in Psychology; MA in 
Experimental Psychology; 9 years investigative experience at NTSB.
    Senior survival factors investigator: 15 years NTSB investigative 
experience.
    Human performance investigator: BS, MS Florida Institute of 
Technology in Psychology; PhD, Virginia Polytechnic Institute in 
Industrial Engineering; human performance researcher USCG Research and 
Development Center.
    Question 3. If the NTSB were given priority in marine 
investigations, what effect would that have on your current workload 
and budget?
    Answer. The most significant effect would be a major improvement in 
the collection of safety-related information and evidence during the 
on-scene phase of the investigation and the timely issuance of safety 
recommendations. The workload would be somewhat alleviated by reducing 
the time used in negotiation with the USCG and in the time spent trying 
to recapture factual information lost during the on-scene 
investigation. The Board's marine budget should not be affected.
    Question 4. In May 1997, the vessel Evergrade collided with the 
Coast Guard vessel Cowslip near Astoria, Oregon. Since the accident 
involved the Coast Guard, NTSB investigated the incident but has yet to 
release its report. What is the cause of the delay and when do you 
expect to release the report?
    Answer. Because of a heavy workload, the investigation of this 
accident took longer than we anticipated. However, the report is 
currently under review by the Board, and is expected to be released in 
the near future.
    Question 5. Your legislative submission indicates that marine 
accidents are most similar to aviation accidents. However, the Coast 
Guard contends that marine accidents are, in fact, quite different from 
other transportation accidents. According to the Coast Guard, a marine 
accident can last for weeks, beginning with high-risk search and rescue 
operations, firefighting, or waterway closures and later shifting to 
marine traffic control problems, salvage efforts and pollution 
response.
    (a) Please briefly describe the differences between conducting an 
aviation accident investigation and a marine accident investigation.
    Answer. The TWA Flight 800 accident is an example of an on-scene 
aviation investigation that lasted many months and involved substantial 
emergency response, fire-fighting, and salvage efforts. For both 
aviation and marine accidents, we launch technical experts with 
extensive modal and accident investigation experience to document and 
collect factual material regarding operations, engineering, damage, 
fatalities/injuries, human performance and survival factors including 
emergency response. The major difference between aviation and marine 
accidents is in the emergency response phase. Local emergency response 
agencies generally respond in aviation accidents, and in marine 
accidents much of the emergency response, such as search and rescue and 
pollution abatement, is conducted by the Coast Guard. This aspect of 
the on-scene accident investigation responsibilities, once again, is 
better suited to an NTSB-led investigation. NTSB simply documents and 
observes, rather than enter into the decisionmaking that may or may not 
extend the damage from the accident.
                              rand review
    Question 1. Your testimony highlighted the RAND Corporation's 
review of the Board and some of its anticipated findings. While, as you 
mentioned, Committee staff has received two briefings from the Board 
and RAND some time ago, when can we expect this review finally to be 
completed? Given the preliminary findings, are you satisfied with the 
work conducted by RAND, and, has it been timely in your view?
    Answer. The RAND report is in final editing and we expect the 
report to be issued by the end of September. We are disappointed in 
RAND's lack of timeliness. We report was originally due in the Spring.
    Question 2. In testimony at the House Aviation Subcommittee NTSB 
reauthorization hearing, an individual from RAND Corporation testified. 
In her testimony, she stated that further analysis was needed in order 
to define the dimensions the salary disparity between mid-career NTSB 
staff and engineering salaries in the industry. This individual further 
testified that the NTSB should look at such factors as the benefits of 
federal employment in comparison to compensation packages in the 
private sector. Is the NTSB planning such an analysis and if so, are 
the personnel reforms you are seeking premature?
    Answer. I think the report will clearly demonstrate a lag in NTSB 
salaries at the critical mid-level engineering specialties. Further 
analysis on this issue, in the face of a continued competitive market, 
will simply postpone the point in time when the NTSB can optimally 
staff.
                           aviation questions
    Question 1. The NTSB's list of its Most Wanted Transportation 
Safety Improvements includes three aviation-related issues. The NTSB 
believes that the Federal Aviation Administration (FAA) should take 
steps (1) to reduce the risk of airport runway incursions; (2) to 
address the problem of airframe structural icing; and (3) to preclude 
explosive fuel-air mixtures in the tanks of transport aircraft.
    (a) What does the FAA need to do to get each of these items taken 
off the Most Wanted list? Have the FAA's responses to these 
recommendations been satisfactory?
    Answer. These issues remain on the ``Most Wanted'' list because 
Safety Board analyses show that FAA has more work to do to reach the 
higher level of aviation safety the Board believes is necessary. Once 
FAA fully implements recommendations in these three areas or shows 
substantial progress in implementing them, the Board will make a 
decision on whether or not to remove them from the list. NTSB staff is 
in continual contact with FAA staff on these issues and FAA staff is 
aware of actions NTSB desires before removing items from the list. The 
Board discusses and reviews the list annually at a public meeting 
during which items may be added and deleted. Below is a synopsis of the 
status of the three issues:
    Runway incursions: Since 1972, the NTSB has investigated dozens of 
runway incursion accidents and incidents, released a special report in 
1986, and issued more than 30 recommendations relating to the dangers 
of runway incursions. Because FAA has not been doing enough, nine years 
ago the NTSB added runway incursions to its ``Most Wanted'' list. 
Recommendation A-91-29, issued in 1991, urges FAA to expedite efforts 
to implement an operational system to automatically alert controllers 
to pending runway incursions. There has been a continuing increase in 
the number and rate of incursions over the past five years, and this 
issue remains a serious concern. Several independent studies have 
labeled FAA's efforts ``ineffective.''
    Explosive mixtures in fuel tanks: The TWA Flight 800 accident 
focused attention on the dangers of fuel tank explosions. Two 
recommendations on the list are currently classified as 
``unacceptable.'' Recommendation A-96-175 urges FAA to modify 
procedures to reduce the potential for explosive mixtures in aircraft 
fuel tanks. In Boeing 747s, consideration should be given to refueling 
the center wing fuel tank from cooler ground fuel tanks, proper 
monitoring and management of fuel tank temperature, and maintaining 
appropriate minimum fuel quantities in tanks. Recommendation A-96-176 
asks FAA to require flight handbooks of Boeing 747s, and other aircraft 
in which fuel tank temperature cannot be determined by flight crews, be 
immediately revised to reflect increases in fuel temperatures found in 
flight tests, including procedures to reduce exceeding tank temperature 
limitations.
    Airframe icing: Two major aviation accidents in 1994 and 1997 
prompted six recommendations to improve the safety of aircraft flying 
in icing conditions. All six are listed as ``acceptable'' action, but 
are still open because FAA has not yet met the final goals of the 
recommendations. Recommendation A-96-54, urges FAA to revise 
regulations to reflect recent research into aircraft ice accretion, 
drop size, and temperature, and recent developments in the design and 
use of aircraft, and to expand certification procedures to include 
freezing drizzle/freezing rain and mixed water/ice crystal conditions. 
A-96-55 asks FAA to revise icing certification requirements and 
advisory material to specify volume and liquid water content during 
certification tests. A-96-56 urges FAA to ensure that airplanes are 
properly tested for all conditions in which they are authorized to 
operate, or impose operational limits to prohibit flight in such 
conditions. Flight crews should be provided with the means to 
positively determine when they are in icing conditions that exceed 
aircraft certification limits. A-96-69 asks FAA to research and develop 
on-board aircraft ice protection and detection systems to alert flight 
crews when the airplane is encounters freezing drizzle and rain. A-98-
99 asks FAA to expedite the research, development, and implementation 
of revisions to the aircraft icing certification testing regulations. 
A-98-100 asks FAA to review the icing certification of all 
turbopropeller-driven airplanes.
    Question 2. Overall, how is the working relationship between the 
FAA and the NTSB? Does the FAA do a good job of responding to NTSB 
recommendations?
    Answer. The NTSB and the FAA continue to enjoy an atmosphere of 
professional tension that is necessary when an independent agency 
provides oversight of another agency. Public perceptions that there 
were major disagreements and difficulties between our agencies are not 
borne out by the reality of our relationship.
    Regarding the FAA's responsiveness to NTSB safety recommendations, 
I recently stated I am generally pleased with the FAA's responsiveness. 
However, some issues on the NTSB's Most Wanted list continue to cause 
concern. Runway incursions continue to grow and the FAA has been quite 
slow in implementing changes to reduce this serious hazard. Pilot 
fatigue has been on the Most Wanted list since its inception. Despite a 
Notice of Proposed Rulemaking issued several years ago, nothing has 
been done to address the current regulations governing the flight and 
duty times for pilots. The FAA has stated it will likely issue a 
supplemental NPRM. We believe this will only further delay any 
resolution to this important safety issue. Any further delays on this 
issue is an unacceptable risk to the traveling public. Further, the FAA 
has not acted quickly on fuel tank flammability and wiring issues. 
Although some progress has been made, aircraft icing certification also 
remains on the Most Wanted list.
    Question 3. Are there other important aviation safety issues that 
the Board has considered placing on the Most Wanted list?
    Answer. The Board reviews the Most Wanted list annually to 
determine if any additional items should be added to the list. While 
the Board considers all of its recommendations to be important, it 
reserves the Most Wanted list for those items that the Board believes 
will have the greatest impact on transportation. During this year's 
review, there were several additions made to support existing topics, 
but no additional topics were identified for inclusion on the list.
    Question 4. Has the NTSB worked with the FAA in the development of 
a strategic plan for aviation safety as recommended by the National 
Civil Aviation Review Commission?
    Answer. The Safety Board has reviewed the NCAR report and 
recommendations. Safety Board and FAA staff meet periodically to 
discuss the various safety issues of concern and to discuss the 
application of resources to the areas with the most potential payoff. 
However, the Board's Most Wanted safety recommendations reflect the 
topics the Board has identified as major areas for strategic action by 
the FAA.
    Question 5. Chairman Hall, the NTSB allows groups such as airlines, 
manufacturers, pilots unions and others to participate in the fact-
finding phase of a probe or investigation, which has been referred to 
as the ``party system.'' I would like your views on the ``party 
system.''
    (a) Do you see a conflict of interest by involving these types of 
groups that often have a financial interest in the outcome of the 
investigation.
    Answer. There is unquestionably some tension within these 
organizations as to their participation in our fact-finding process. 
Our processes recognize this, and it is the basis for our exclusion of 
such parties from our analytical and recommendation processes. To move 
further toward independence is, perhaps, a preference, but cannot be 
achieved without a significant change in funding available for 
independent testing and investigation.
    (b) After the American Airlines accident in Little Rock, Arkansas, 
you expressed your disappointment on how Mr. Bob Baker, President of 
American Airlines, interacted with the media following the tragic 
accident. Is there any type of policy relating to media interaction by 
employees of a company that was involved in an accident, or do you 
foresee the need for such policy in order to manage the flow of 
information following a tragedy.
    Answer. The Board is working with the Air Transport Association on 
a new policy outlining media relations following major aviation 
accidents. This is under final review by both organizations. We 
anticipate this process will help forestall future difficulties, and we 
will be happy to provide your staff with a copy of the policy as soon 
as it is completed.
    (c) Staff has been informed that the RAND study may recommend 
revisions to the party system ``pledge'' agreement which was developed 
in 1967 and has continued unchanged since that time. What is the 
Board's reaction to this idea and does the Board believe that three 
decade-old pledge needs to be updated?
    Answer. The NTSB will review RAND's proposals fully during the next 
quarter. However, there is little doubt that some alteration in our 
organizational processes may be necessary.
    Question 6. In 1997, Congress approved legislation that requires 
foreign airlines operating to and from the United States to submit a 
plan to DOT for dealing with the needs of victims and their families 
following airline accidents in the U.S. I know you have urged ICAO to 
develop a guidance program to support victims of aviation accidents and 
their family members. What action has ICAO taken relating to this 
issue?
    Answer. On January 29, 1999, ICAO issued a letter to all 188 member 
states soliciting their views on the need for ICAO guidance or Annex 
provisions. ICAO also requested that all states with family assistance 
information forward the material to ICAO for use in developing 
standardized guidance to member states. ICAO received the requested 
information from the sates in April 1999, and is currently working on a 
draft document for review by the States. We have offered our assistance 
and experience to ICAO in developing family assistance guidance.
    Question 7. Some observers believe that accident investigations are 
taking too long and increasingly result in no remedial action. Is there 
any validity to such views?
    Answer. Investigations have become increasingly complex and quite 
lengthy. A number of our staffing priorities are aimed at permitting 
the Board to build an organization with the depth and abilities to 
address this issue. We disagree that there is lack of action following 
a Board investigation. FAA's acceptance rate for Board safety 
recommendations is over 80 percent. Some of those recommendations dealt 
with flight safety in Alaska, fuel tank explosions, and aviation 
wiring, all issues that have made it safer for the flying public.
    Question 8. A few weeks ago, the NTSB launched an inquiry into a 
near collision on a Kennedy Airport runway between an Air France Boeing 
747 cargo jet and a departing Icelandair Boeing 757 that carried 185 
passengers. Given that the NTSB is primarily responsible for accident 
investigations, what actions does the NTSB plan to take with regard to 
near collision incidents?
    Answer. Certainly, the near collision at JFK airport between the 
Icelandair Boeing 757 and the Air France Boeing 747 had high potential 
for a catastrophe. That incident is still under investigation. The NTSB 
is also investigating a serious incident involving a near collision 
between an Air China Boeing 747 and Korean Airlines Boeing 747 that 
occurred a month earlier at O'Hare Airport. Although the subject of 
runway incursion prevention is already on the Safety Board's Most 
Wanted list, these incidents suggest that the problem is far from being 
resolved. We are now evaluating the need for additional safety 
recommendations.
    Question 9. In the past, what recommendations, if any, has the NTSB 
made relating to near collision incidents?
    Answer. Nine years ago, the NTSB added runway incursion prevention 
to its Most Wanted list of safety improvements because we believed that 
the FAA was not acting aggressively enough. The Most Wanted list 
contains a 1991 safety recommendation that urges the FAA to expedite 
efforts to fund the development and implementation of an operational 
system analogous to the airborne conflict alert system to alert 
controllers to pending runway incursions at all terminal facilities 
that are scheduled to receive airport surface detection equipment 
(ASDE-111).
    In mid-1998, the FAA made a public commitment to renew its efforts 
to tackle the runway incursion problem. The FAA has made some progress 
in the installation of the Airport Surface Detection Equipment (ASDE-3) 
radar systems which will go far to improving runway safety. The latest 
figures from the FAA indicate that 40 ASDE-3 systems have been 
commissioned. Except for the installation and current testing of 
Airport Movement Area Safety Systems (AMASS) at the San Francisco, St. 
Louis, Detroit, and Atlanta airports, we have seen little progress in 
the development and installation of AMASS that is designed to alert 
controllers to an impending surface incident. We remain concerned that 
technical problems with this much-needed system continue.
    Of further concern is the fact that AMASS will only be installed at 
39 large airports, which leaves scores of other air carrier airports 
without redundant systems to prevent ground collisions. Currently, 
there are several low-cost runway incursion systems under development 
that could enhance safety at many airports.
    During a May 1999 public meeting, the NTSB kept runway incursions 
on the Most Wanted list and again urged the FAA to implement an 
effective plan. Over the past five years, both the number and rate of 
runway incursions have increased. Because of this, the Safety Board 
remains concerned.
    Question 10. Your prepared testimony states that in 1998, the Board 
supported 130 international accident investigations, both on scene and 
in your laboratories. Can you give me a rough estimate of the costs the 
NTSB has incurred as a result of these 130 international accident 
investigations?
    Answer. The cost to support international accident investigations 
in 1998 (excluding salaries and overtime) was approximately $180,000. 
The full cost, including the salaries, benefits, and peripheral 
activities necessary to support our foreign presence easily exceeds 
$750,000.
    Question 11. A recent newspaper article reported that about half of 
the world's passenger jets contain types of electrical wire insulation 
that experts said were prone to chafing or cracking under certain 
conditions. Of course, such damaged wire may increase the risk of fires 
or electrical failures.
    (a) Does the NTSB have a sense of the scope of the problem?
    Answer. The Board is aware of claims that this is not a problem and 
counterclaims that the problem is substantial. Consequently, the Safety 
Board currently has work in progress to examine this issue. We have 
contracted with three laboratories to examine the physical aspects of 
aged wiring and the arcing phenomenon, and we are also collecting data 
to examine the mixture of wiring that is installed in the world's fleet 
of commercial transport airplanes. Although this work is on going and 
we are unable at this time to provide additional specific 
recommendations, our concerns regarding aging aircraft wiring safety 
include: ensuring that low voltage fuel system wiring is separated from 
high voltage wiring from other systems; ensuring that no wiring is 
routed in proximity to flammable oxygen, fuel, and hydraulic lines or 
critical flight control cables; and preventing the contamination of 
wiring by fluids, flammable lint, metal shavings, or other debris.
    (b) Do aging wires and electrical systems pose a significant safety 
hazard?
    Answer. The Safety Board is concerned about wiring maintenance, 
particularly as airplanes age. Industry and regulatory efforts have 
been relatively ineffective in preventing the types of wiring hazards 
seen during the TWA Flight 800 investigation. Our wire examinations 
have shown that it is virtually impossible to eliminate all potential 
ignition sources, and underscores our belief that the flammability of 
fuel vapors be reduced as much as possible. A Safety Board 
recommendation issued to the FAA on this issue is still open.
    (c) In the NTSB's opinion, is the FAA doing enough to address this 
issue? If not, what more can be done?
    Answer.The FAA has participated in the Safety Board's examinations 
of air carrier airplanes and examined other airplanes based upon Safety 
Board findings. The FAA subsequently initiated their own ``Aging 
Transport Non-Structural Systems Plan.'' As a result of their plan, the 
FAA has convened an Aviation Rulemaking Advisory Committee and has 
taken other actions. While we are concerned about the level of industry 
input, the Safety Board will continue to monitor the FAA actions and 
outcome.
    Question 12. Chairman Hall, the new electrical-based systems such 
as video gambling, video entertainment equipment, advanced internet and 
phone capabilities, and similar technologies are rapidly being 
installed on passenger aircraft.
    (a) Does the NTSB believe such passenger electronic systems pose a 
safety risk?
    Answer. This issue is currently being explored as part of the 
Swissair Flight 111 investigation conducted by the TSB of Canada.
    (b) Have the safety implementations of the electronic systems been 
investigated enough or do they warrant more careful examination prior 
to installation on passenger aircraft?
    Answer. As part of the Canadian investigation of Swissair Flight 
111, the Safety Board agreed that the FAA should conduct further study 
of the issue. In the fall of 1998, the FAA formed a Special 
Certification Review Team to look at the Swissair MD-11 airplane in-
flight entertainment system. While the NTSB is still reviewing the 
findings of the certification review team's report, issued on June 14, 
1999, the report identified concerns with the installation of the 
system.
    Question 13. I recognize that the Little Rock, Arkansas aviation 
accident is still under investigation and I'm not asking you to comment 
on that specific case. But that accident incident has highlighted 
longstanding issues associated with crash survivability and aircraft 
evacuation procedures.
    (a) What significant recommendations has the NTSB made with respect 
to these issues?
    Answer. Crash survivability and aircraft evacuation are a long-
standing concerns of the Safety Board. The NTSB has testified before 
the Congress and issued numerous safety recommendations since the 
Board's inception related to the crashworthiness of seats and cabin 
furnishings, the flammability of interior materials, and evacuation 
equipment and procedures. This issue has also been the subject of Board 
safety studies and special investigations over the years. We will 
review these issues once again in our investigation of the Little Rock 
accident.
    (b) Is the FAA placing enough emphasis on addressing survivability 
and evacuation concerns?
    Answer. As part of its investigation of the accident at Little 
Rock, Arkansas, the Safety Board will thoroughly evaluate the issues 
associated with occupant survivability and evacuation. Also, the Safety 
Board is conducting a safety study on Emergency Evacuation. The Board 
has collected information on 46 evacuations and is conducting a 
detailed investigation of 30 of those evacuations. The Safety Board 
will assess the current FAA emphasis on survivability and evacuation as 
part of its investigation of the accident at Little Rock, and the 
evacuation safety study.
    (c) Is the industry moving fast enough to install items such as 
stronger seats and more fire-retardant materials for the interiors of 
aircraft?
    Answer. The Safety Board supported the 1988 FAA rulemaking to 
require 16G seats in newly certificated aircraft and continues to 
monitor the FAA's proposed rulemaking on 16G seat retrofit. The Board 
issued safety recommendations related to the replacement of interior 
materials (A-96-86 and -87) to the FAA in 1996. Those recommendations 
were classified ``Closed Unacceptable Action'' on June 8, 1999, because 
the Board did not believe that the replacement schedule for interior 
materials was adequate.
    (d) It is my understanding that the FAA allowed three jet models to 
be certified without going through live evacuation tests. Do you think 
that was appropriate under the circumstances and what jet models were 
certified without live evacuation testing?
    Answer. The Safety Board recently commented on an FAA Proposed 
Advisory Circular on ``Emergency Evacuation Demonstrations.'' In its 
comments, the Board stated, ``Although the FAA contends that sufficient 
data exist from previous evacuation demonstrations and tests to pen-nit 
analytical proof of regulatory compliance, the Board believes that 
full-scale demonstrations provide critical information that is 
unobtainable from analysis and subsystem tests alone. For example, in 
past demonstrations, escape slide design and lighting problems have 
been identified. Also, flight attendant procedures to optimize 
passenger management have been modified because of demonstrations that 
failed to meet the 90-second certification requirement.''
                               __________

Responses to Written Questions Submitted by Hon. John D. Rockefeller IV 
                         to Hon. James E. Hall

    Question 1. This week, the State of Florida brought 110 counts of 
third-degree murder against SabreTech--the Miami company that you found 
to have improperly loaded hazardous oxygen tanks on board ValuJet 
Flight 592, which crashed into the Florida Everglades in May 1996, 
tragically killing 110 people. A federal grand jury then immediately 
indicted SabreTech, two of its mechanics and a maintenance director on 
charges of conspiring to cover up the problems that lead to the 
accident and failing to train personnel in handling hazardous 
materials. What is your view of this highly unusual action? Do you 
think it will impact the Board's investigative abilities? If so, how?
    Answer. As you know, the NTSB is responsible for determining the 
probable cause of major transportation accidents and for issuing safety 
recommendations aimed at preventing future accidents. Separate criminal 
investigations are not uncommon, although a homicide prosecution in a 
high profile air carrier accident has heightened attention on this 
issue. We appreciate the respect that both Federal and Florida 
authorities demonstrated for the work of the NTSB in the SabreTech 
matter. Our investigation of the ValuJet accident was permitted to 
proceed, and we issued our final report on the investigation in August 
1997. We believe that this case demonstrates that when mutually mindful 
of each others' needs both the NTSB and law enforcement authorities can 
fulfill their responsibilities without hindering the work of the other.
    It is too soon to assess what impact this prosecution may have on 
NTSB investigations. Obviously, criminal prosecutions, or even the 
threat of such prosecutions, can result in some witnesses refusing to 
be interviewed or to testify. It is worth noting that at the heart of 
the criminal charges in the SabreTech prosecutions is the intentional 
falsification of records pertaining to the shipment of regulated 
hazardous material, and not alleged accidental or negligent behavior. 
Whether or not the charges are sustained, we cannot count on 
individuals who may have falsified records to be forthcoming witnesses 
in an NTSB investigation.
    Question 2. The NTSB announced its decision in the USAirways Flight 
427 Pittsburgh crash in April, I believe. The report has not yet been 
released. When do you anticipate releasing the report?
    Answer. The Board adopted the report of the accident involving 
USAir Flight 427 on March 24, 1999, and the final report of the 
accident was placed on the Board's web site on July 20, 1999. The final 
copy is with the Government Printing Office, and we expect to receive 
the printed report shortly,
    Question 3. The NTSB is renting a facility in Calverton, NY to 
house the wreckage of TWA Flight 800, which crashed in July 1996. I 
know that putting the pieces of this plane together, and understanding 
what brought it down, was a long, and difficult task. The Appropriators 
apparently do not want you to continue using the Calverton site. How 
much would it cost you to move the aircraft, and where would you 
anticipate locating it? How would the move impact any ongoing work you 
are doing?
    Answer. In response to the second question, the investigation is 
still on-going with many tests yet to be completed. When tests are 
performed, the results are compared to the 90-foot reconstruction. The 
reconstruction has been invaluable to the investigation, and we believe 
will become a unique training aid for accident investigators. It would 
cost approximately $1 million to relocate this wreckage to the 
Washington Metropolitan area. The NTSB is currently working with the 
General Services Administration to identify space for the wreckage, the 
reconstruction, and training facilities. It is anticipated that the GSA 
will issue a prospectus in the Washington Post seeking open competition 
within a one-hour commute of the NTSB headquarters. The Safety Board 
recently moved the reconstruction and wreckage to a smaller hangar at 
the Calverton facility, at a savings of $4 million per year.
    Question 4. This past Tuesday night, Jim Kallstrom, former head of 
the FBI's New York office, and the lead FBI investigator on the TWA 800 
crash, was interviewed on MSNBC about that investigation. He talked 
about the difficulties of the investigation and the pressure on the 
FBI. In your proposed reauthorization bill, you are asking for 
authority to make clear that you have primary jurisdiction over an 
accident scene (primary over even the FBI). Can you explain to us some 
of the issues you confronted in the TWA 800 investigation and why we 
should consider making that clarification?
    Answer. The request to reaffirm NTSB authority in the event of 
parallel Federal investigations arises out of several issues, perhaps 
the most important being an ambiguity introduced into the statute by 
the Family Assistance Act. The Act included a provision stating that 
its terms were effective in any aircraft ``accident'' regardless of its 
suspected cause. (The FBI has cited this provision in correspondence 
with the Senate as a basis to question the intentions of Congress with 
respect to NTSB jurisdiction at disaster scenes where criminal activity 
cannot be ruled out.)
    The investigations surrounding TWA Flight 800 pointed out the 
immense difficulty of assuring full coordination in the context of an 
extremely high profile major disaster, where expectations for 
aggressive action by all agencies are great. However, because there 
appeared to be little doubt about the ultimate jurisdiction of NTSB to 
supervise the assemblage of wreckage, at least to the point of reliable 
evidence of an intentional criminal act, accommodations were reached 
that permitted all concerned to proceed. In order to assure that there 
is no setback in future investigations and that matters do not become 
even more controverted than they might have been in TWA Flight 800, 
NTSB has requested that Congress reaffirm its continued desire for NTSB 
to perform its functions in all major transportation disasters, 
consistent with its decades-long practice. NTSB feels certain that 
Congress did not intend, through enactment of the Family Assistance 
Act, to change this arrangement.
    Question 5. Under existing law, the NTSB is primarily responsible 
for the accident scene and for providing information to the press and 
the public about an accident. That process has generally worked well in 
the past. However, with today's real-time media and access to 
information through the Internet and round-the-clock television, it has 
become increasingly difficult to ``control'' the flow of information, 
and in the recent American Airlines accident in Little Rock which 
created some conflicts between the Board and the airline. While the 
integrity of an investigation is obviously a paramount concern, we need 
to ensure that the public has access to as much information as quickly 
as possible, and often the public can be reassured by interim reports 
and by hearing directly from the airline about what it knows and 
doesn't know and what it's doing. Going forward, how do we 
appropriately balance these somewhat competing needs?
    Answer. The NTSB is cognizant of the changing nature of our news 
media and of an airline's need to provide a public presence after a 
major accident. Board staff have been working with the airlines, 
through their representative, the Air Transport Association, to clarify 
the guidelines about what constitutes an appropriate response by an 
airline involved in an accident and what is best left for the 
investigative team to discuss. On September 7, 1999, an agreement was 
signed by the Air Transport Association and National Transportation 
Safety Board Chairman Jim Hall regarding this matter, a copy of which 
is attached. In addition, the Safety Board, itself, intends to provide 
more frequent information updates for the news media at accident sites 
to help them better inform the public about the progress of an 
investigation.
                                 ______
                                 

     Principles of Understanding Between ATA Carriers and the NTSB 
  Regarding Certain Aviation Expenditures Related to the Recovery and 
              Identification of Aviation Accident Victims

    With respect to aviation accidents occurring on or after the date 
hereof, the Air Transport Association (ATA) on behalf of its member 
airlines and the National Transportation Safety Board (NTSB) agree to 
abide in good faith and to the extent feasible under the circumstances 
by the following Principles of Understanding relating to certain 
expenditures arising out of or connected with major aviation accidents 
over which the NTSB has primary jurisdiction or control.
    As a result of such major accidents, there are various expenses 
relating to logistical support and transportation for families of 
victims, victim recovery, victim identification, and burial 
arrangements that are incurred. In addition, the ATA carriers need to 
ensure that they retain their normal legal rights and remedies, and 
that some dispute resolution mechanism and continuing consultation 
process are agreed. The foregoing items thus form the basis for the 
following ``Principles of Understanding'':

    1. Logistical and Transportation Expenses for Families. For a 
reasonable period of time after an aviation accident, the operating 
carrier will pay or cause to be paid the various reasonable logistical 
and transportation expenses (including food, lodging, local 
transportation, and travel to/from their home or other starting point) 
of the families of victims to, at and from the accident site or nearest 
appropriate location.
    2. Victim Recovery. The ATA carriers and NTSB agree (a) that the 
operating carrier in a disaster has an interest in determining the 
proper identities of deceased victims, (b) that local coroners or 
medical examiners have responsibilities as well under state or federal 
law, or common law, to identify victims and to issue death 
certificates, and (c) that the NTSB is responsible under federal law 
for facilitating such activities. Given the factual variety in 
potential locations and consequences of aviation disasters, the ATA 
carriers and NTSB agree that no single set of principles can be applied 
in all situations relative to efforts to recover victims. When the 
operating carrier or NTSB believes in good faith that the commencement 
or continuation of the victim recovery effort in a particular accident 
is not reasonably practicable, the parties agree to consult forthwith 
in good faith to determine how, whether or to what extent to proceed, 
and to communicate their decision(s) jointly to the families when 
practical. The respective governmental agency/ies involved in recovery 
efforts will in any event continue to be responsible for the usual and 
customary costs of salaries, wages and benefits of their employees, 
contractors and volunteers, and of the normal costs of such operations 
(eg., heat, light, power, supplies, etc.), pursuant to applicable law. 
The ATA carriers agree to consider in good faith paying or contributing 
to the payment of overtime wages of such persons when (a) the scope and 
proximity of the aviation disaster places a clearly excessive burden on 
the resources of the local medical authority and local fire and rescue 
personnel, and (b) procedures are agreed in advance for the 
documentation and reasonable control and scheduling of such overtime. 
However, the ATA carriers agree, in general, that the operating carrier 
should pay or cause to be paid the reasonable out of pocket operating 
expenses incurred for the recovery of victims and remains (as distinct 
from wreckage) when the recovery effort or its continuation is 
reasonably practicable, and consistent with both the purpose of the 
recovery or salvage effort described immediately below and of the 
identification hierarchy described in Paragraph 3 below. If the 
recovery or salvage equipment is recovering both wreckage (pursuant to 
an on-going accident investigation) and human remains, the operating 
carrier is not financially or operationally responsible for any such 
salvage costs; however, if the salvage equipment is intended and is 
used solely to recover remains, then the operating carrier is 
responsible subject to the provisions of these Principles of 
Understanding.
    3. Victim Identification. For the sole purpose of identifying 
deceased victims, not unassociated or individual tissue or remains, the 
operating carrier will pay or cause to be paid the usual and customary 
out of pocket expenses incurred as a result of the aviation accident by 
the local medical authority (i.e., local coroner or medical examiner) 
for identification of victims through traditional means (eg., visual, 
dental records, medical records, etc.). To the extent unidentified 
deceased victims remain thereafter, the operating carrier will pay or 
cause to be paid the reasonable out of pocket expenses incurred for 
reasonable alternative technological identification methods, such as 
DNA testing, solely to complete the victim identification process. 
Local governmental authorities will continue to be responsible for the 
salaries and wages of their employees or contractors, and the normal 
costs of operations, pursuant to applicable law. It is further agreed 
that the NTSB will itself use its good offices to support strongly the 
foregoing identification hierarchy processes with local coroners, 
medical examiners, other governmental agencies (federal, state and 
local), family or victim assistance groups, etc., in an effort to 
reduce the cost of such identification processes to the maximum extent 
feasible. The ATA carriers agree in good faith to consider paying or 
contributing to the payment for (1) the transportation of the federal 
Disaster Mortuary Team (``DMT'') and its mobile morgue to and from the 
site, (2) the DMT's extraordinary, but reasonable, out of pocket 
operating and resupply costs, subject to Paragraph 6, and (3) the DMT's 
reasonable daily salary costs, while on site, determined pursuant to 
the relevant federal employee pay scale; provided, however, that the 
local medical authority independently requests the DMT's assistance to 
facilitate and expedite the identification and release of victims' 
remains.
    4. Burial Arrangements. The ATA carriers agree that the operating 
carrier should pay for reasonable and customary funeral expenses 
(including shipment of remains) for identified victims once the local 
medical examiner or coroner has released the remains.
    5. Airline Remedies. Nothing in these Principles of Understanding 
is intended or is to be construed to limit, modify or waive any of the 
legal rights and available remedies of the ATA carriers (or their 
insurers through subrogation) for any airline expenses paid pursuant to 
these Principles of Understanding as against any third party, including 
without limitation any party who is or may be wholly or partially 
responsible for such accident, including but not limited to airframe, 
engine or component manufacturers, airport authorities, air traffic or 
other flight controllers, maintenance service or fuel providers, etc.
    6. Dispute Resolution and Consultations Regarding Victim Recovery 
and Identification.
    A.The ATA carriers and the NTSB agree that throughout the duration 
of an aviation disaster, including the on-site period as well as the 
subsequent response duration, representatives of the operating carrier 
and the NTSB will confer and consult with each other on an on-going 
basis, especially as it pertains to victim recovery and identification, 
but not to include the investigative process or its results. The NTSB 
agrees that any expenses for which the operating carrier is or may be 
responsible under these Principles of Understanding shall be reviewed 
with and approved by such carrier in advance to the maximum extent 
practicable, but in any event no major or material expenses of the 
operating carrier hereunder shall be committed by the NTSB without the 
operating carrier's prior consent. The ATA carriers and NTSB agree that 
every effort will be made to implement reasonable procedures for 
expeditious review and approval that are appropriate to the 
circumstances of the disaster in question.
    B. The ATA carriers and NTSB agree further that (a) if any disputes 
arise under these Principles of Understanding, (b) if situations arise 
when their application is not certain, or (c) if either the operating 
carrier or NTSB disagrees with the application or prospective 
application of these Principles in a particular accident (which 
application has or may have a material adverse financial effect on the 
operating carrier or its insurers), the parties will act expeditiously 
and in good faith to resolve the dispute or uncertainty through direct 
discussions. The operating carrier may invite its aviation insurance 
broker and representatives of its insurers to participate in such 
resolution, in addition to legal counsel and other relevant advisors or 
representatives of the foregoing. The NTSB may invite such other 
assistance or representatives as it believes are relevant to resolve 
the dispute or uncertainty in question. The parties agree, however, to 
work in good faith and to make every attempt to conduct such dispute or 
uncertainty resolution on a confidential basis and without recourse to 
the media or other communications channels. Further, the ATA carriers, 
the ATA and the NTSB agree to hold periodic consultations in the future 
regarding their respective experiences under these Principles and other 
matters, and to work together in good faith to avoid or mitigate 
identified problem areas.

            Agreed and Effective this 7th day of September, 1999.

                                   Carol Hallett, President and CEO,
                                           Air Transport Association of
                                             America.

                                   James E. Hall, Chairman,
                                           National Transportation 
                                               Safety
                                             Board.

    Responses to Written Questions Submitted by Hon. Ted Stevens to 
                           Hon. James E. Hall

    Question 1. How would portable NAVAIDS (both enroute and approach) 
benefit general aviation safety in the bush and enhance safety overall 
for hunter and guide operations in Alaska?
    Answer. In its 1995 study of aviation safety in Alaska, the Safety 
Board identified the need for an enhanced low altitude instrument 
flight rules (IFR) system in that State. Technological developments in 
satellite-based navigation using the Global Positioning System (GPS), 
can provide navigational coverage throughout Alaska for IFR enroute 
operations and non-precision approaches (which will be at least as 
accurate as the coverage provided by the military's portable ground-
based navigational aids). Further, GPS will shortly provide the 
navigational guidance required for precision approaches. Because of the 
precision, widespread coverage, and efficiency of GPS, the Safety Board 
does not see advantages in the use of portable ground-based 
navigational aids.
    However, the Safety Board is monitoring the development of 
precision approach capability using GPS to identify the extent of 
requirements for regional, ground-based local area augmentation of the 
GPS signals.
    Question 2. As of today, what is the disposition of the outstanding 
safety recommendations your Board made in its 1995 study, ``Aviation 
Safety in Alaska?''
    Answer. With three exceptions (listed below), these safety 
recommendations have been ``closed--acceptable'' or are in an ``open--
acceptable'' status. For those in an ``open acceptable'' status, the 
Safety Board is following several programs currently underway in 
response to the recommendations, including the Federal Aviation 
Administration's (FAA) Project Capstone, the National Weather Service's 
(NWS) test of remote color video cameras, and the U.S. Postal Service's 
new distribution procedures for bypass mail.
    On December 20, 1996, the Safety Board closed its recommendation to 
the FAA on the augmentation of automated surface observation system 
(ASOS) weather observations in an unacceptable classification because 
the FAA did not plan to take action. However, the Board is pursuing 
augmentation of ASOS weather observations through an open safety 
recommendation to the NWS.
    On March 20, 1997, the Safety Board closed its recommendation 
urging the NWS to provide near-real time ``mike-in-hand'' weather 
updates to pilots in an unacceptable status, after the NWS reaffirmed 
its national policy prohibiting this service.
    On June 1, 1999, the Safety Board classified its safety 
recommendation on pilot flight time limitations and rest time 
requirements in an open--unacceptable status. Despite a Notice of 
Proposed rulemaking issued several years ago, nothing has been done to 
address the current regulations governing the flight and duty times for 
pilots. The FAA has stated it will likely issue a supplemental NPRM. We 
believe this will only further delay any resolution to this important 
safety issue. Any further delays on this issue is an unacceptable risk 
to the traveling public.
    Question 3. Would your organization participate in a NIOSH 
interagency initiative on safety in Alaska? And if so, what 
Congressional support would you need?
    Answer. The Safety Board has reviewed the National Institute on 
Occupational Safety and Health (NIOSH) proposal, and we concur in 
general with NIOSH's outline of the safety problems in Alaska and the 
goals of its research project. As proposed by NIOSH, the project is 
primarily a collaboration between that agency and the FAA's Alaskan 
Region Flight Standards Service. NIOSH does not propose the use of 
Safety Board resources in the project. Nevertheless, the Board will 
support this effort through participation of its Office of Research and 
Engineering, Safety Studies Division and Office of Aviation Safety, 
Northwest Regional Office staff. Based on the NIOSH proposal, no 
additional Congressional support would be required for the Safety 
Board's participation in this activity.
    The Safety Board is concerned, however, that the retrospective 
review of accident data proposed by NIOSH may be insufficient to 
thoroughly evaluate some of the issues suggested in the NIOSH proposal. 
If the NIOSH/FAA study team should turn to a prospective study of 
accidents, the Safety Board would cooperate with the resulting special 
accident investigation requirements, and would require additional 
investigative and analytical resources.
  

                                <greek-d>

</pre></body></html>
